                                   U.S. DEPARTMENT OF COMMERCE
                                            Office ofInspector General




                                          National Institute of
                                     Standards and Technology
     "~


           -·--···--
...._~·~··--·····-­
     ......      .·.


                        ... ,...
                      --~~




                                                   FloridaMEP
                                       Award No. 70NANB3H2002



                                          Final Audit Report No. ATL-18568
                                                               March 2009




                                                       Atlanta Regional Office
U. S. DepartmentofCommerce                                                                             ReportATL-18568 

ODice ofIospector General                                                                                     Marcb200~ 





                                            TABLE OF CONTENTS



IN'TRODUCTION...... ........... :.. ............ .... ............ ... .................. ...... ... ......            1


FINDINGS AND RECOMMENDATIONS.....................................................                                     2


     $11.4 MILUON UNALLOWABLE SUBRECIPIENT COSTS...........................                                           2


     GR.ANTEE RESPONSE........................... .. ........... .. ...... ... ... ...... . . . . . . . . . . . .     4


     OIG COMI\1ENTS.. . ..... ....... .. ... .......... ........ ... .. .. ..... ...... ............ .. .. .. .....   5


     $512,998 UNSUPPORTED AND UNREASONABLE CONSULTANT COSTS......                                                     6


     GRAN1EE RESPONSE........... . ... ........... . ...................................... .......                   11 


     OIG COMMENTS.. .............. .. .. . ..........................................................                 12 


     $164,836 UNREASONABLE AND UNALLOWABLE OTHER DIRECT COSTS...                                                      13 


     GRANTEE RESPONSE.............................. ... .... .. .......... ... .... . .... ...... ......              14 


     OIGCO~NTS ................................................. .... .. ........ .................                   14 


     $99,738 UNALLOWABLE THIRD-PARTY CONTRIBUTOR COSTS. ................                                              15 


     GRAN'fEE RESPONSE........ . .. . ..... . ......... .. ....... .. . .. . .......... ... ............. .....       16 


     OIGCO~S .. . ........ .. .. ... ..... ................ ........ ................. ................               16 


     $57,760 UNALLOWABLE LOBBYING COSTS... .... ........ ............... ... ... .......                              16 


     GR.ANTEE RESPONSE.... ........... .......................................... ... ....... ......                  18 


     OIG COMMENTS................ ........... ............ ... ...... ... ... ..........................              18 


     $'. . UNREASONABLE TRAVEL COSTS... ..... . ..... ..... ......... ........... ....... 
                           19 


     GRANTEE RESPONSE........................ ............. ........... .................... .....                    20 


     OIGCO~NTS .................. .. .. ... ..................... . ... .......... ....................               20 

U. S. Department ofCommerce                                                                                  ReportATL-18568 

Office ofInspector General                                                                                        March 2009 





      $386,133 QUESTIONED INDIRECT COSTS...............................................                                    20 


      GRANTEE RESPONSE.........................................................................                            20 


      OIG COJ\IIJ\1ENTS........... :............................................................ .. . . . ...              21 


      INCORRECT AND MISLEADING CALCULATIONS USED 

      TO REPORT EXCESS PROGRAM INCOME..............................................                                        21 


      GRANTEE RESPONSE........................................................................                             23 


      OIG COJ\IIJ\1ENTS... ... ...... ... ... ... ...... ...... ... ... ... ... ... ...... ... ... ... ......... .......   24 


      RECOMMENDATIONS........................................................................                              25 


SUMMARY RESULTS OF FINANCIAL AUDIT.............................................                                            26 



APPENDIX A- Objectives, Scope, and Methodology...........................................                                  27 


APPENDIX B - Summary of Source and Application ofFunds................................                                     29 


APPENDIX C - Summary ofFinanciaVCompliance Audit... . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. .   30 


APPENDIX D- Grantee Response to Draft Report...............................................                                32 

U. S. Department ofCommerce                                                        Report ATL-18568 

Office ofInspector General                                                              March2009 



                                        INTRODUCTION

In September 2003, the National Institute of Standards and Technology (NIST) awarded
Manufacturing Extension Partnership Cooperative Agreement No. 70NANB3H2002 to the
Florida Manufacturing Extension Partnership (Florida MEP). The September 2003 award
approved funding for the period of August 1, 2003, through July 31, 2004. The award was
subsequently amended to extend the award period through June 30,2007.

During the award period of July 1, 2005, through March 31, 2007, Florida MEP submitted
financial reports to NIST claiming total project costs of $19, 133, 115. Based on these claims,
Florida MEP received federal reimbursements totaling $5,038,055.

In May 2007, we initiated an audit ofFlorida MEP to determine whether the recipient complied
with award terms and conditions and NIST operating guidelines for MEP centers. The audit
covered the 21-month period of July 1, 2005, through March 31, 2007. The primary objective of
our audit was to determine whether Florida MEP reported costs to NIST, including costs
incurred by subrecipients, that were allowable and in accordance with federal regulations and
NIST policy. In addition to costs claimed as being incurred by Florida MEP, we examined cost
claims originating at the eight Florida MEP subrecipients and two third-party in-kind
contributors.




                                                 1

U. S. Department ofCommerce                                                       ReportATL-18568 

Office ofInspector General                                                             March2009 




                         FINDINGS AND RECOMMENDATIONS 


We questioned $12,623,477 in costs, as follows:

   • 	 $11,394,824 claimed for eight subrecipients who could not provide documentation that
       their claims were based on actual costs incurred under the subawards;

   • 	 $512,998 in consultant agreements because oflack of adequate supporting documentation
       and duplication ofservices;

   • 	 $164,836 in unreasonable and unallowable other direct costs claimed;

   • 	 $99,738 in unallowable claims for third-party in-kind contributions;

   • 	 $57,760 in claimed costs because of unallowable lobbying activities;

   • 	 ~ claimed travel reimbursements as unreasonable costs; and

   • 	 $386, 133 as indirect costs associated with the above questioned direct costs.

We also found that Florida MEP used incorrect and misleading calculations to report excess
program income. We believe NIST should recover $2,868,393 in excess federal funds disbursed.
A summary ofthe resuhs of our financial audit is located in Appendix C.

$11.4 MILLION UNALLOWABLE SUBRECIPIENT COSTS

We questioned $11,394,824 Florida MEP claimed for costs incurred by eight subrecipients.
Florida MEP did not have documentation to support that"their claims were based on actual costs
incurred under the subaward agreements. Florida MEP was unable to disclose accurate, current,
and complete financial results for the eight organizations- a requirement for financial
management systems that track and report on federal funds. The primary reason that Florida
MEP was unable to disclose the financial results is that the subrecipients did not maintain an
adequate financial management system that could adequately track and report costs in
accordance with the cooperative agreement' s requirements.

The administrative principles in 15 CFR, Part 14 are incorporated by reference into Florida
MEP's cooperative agreement with NIST. These requirements flow down to the subrecipients
pursuant to 15 CFR, Section 14.5. NIST operating plan guidelines for MEP Centers, issued in
March 2005, require all MEP subawards to include the applicable administrative requirements
and all general and special award conditions imposed on the recipient. Minimum requirements
for recipient and subrecipient accounting systems, as established in 15 CFR, Section 14.21,
include




                                                2

U. S. Department ofCommerce                                                                   Report ATL-18568 

Office ofInspector General                                                                         March2009 



       • 	 accurate, current, and complete disclosure ofthe financial results ofeach federally­
          . sponsored project or program (Section 14.21(b) (1));

        • 	 comparison ofoutlays with budget amounts for each award (Section 14.21(b) (4)); and

        • 	 written procedures for determining the reasonableness, allocability, and allowability of
            costs in accordance with applicable cost principles and the terms and conditions ofthe
            award (Section 14.2l(b)(6)).

The eight subrecipients did not have financial management systems that met these requirements.
The eight organizations did not establish separate cost centers in their accounting systems to
track costs incurred under their agreements with Florida. Rather than tracking and reporting
actual costs incurred under their respective subawards, the organizations forwarded financial
reports with their nonnal operating expenses to Florida MEP. Florida MEP then claimed
expenses it identified as allowable and included these costs as part of its matching share on its
financial status reports to NIST (see table 1).

Table 1. 	                 s Costs Claimed
                                                             Provided by
 Subrecipients                                         Florida MEP Under            Costs Oaimed as Cash
                                                       Subaward *                   Match by Florida MEP
                                                                       $       0
                                                                           9,000
 Florida's
 First Coast Manufacturing Association                                  11 ,567
 South Florida Manufacturing Association                                19,250
 Manufacturing Association of Central Florida                           13,575
 Bay Area Manufil.cturers Association                                   16,350
 Florida Sterling Council                                                  6, 150
 University ofNorth Florida                                             20.000
                   TOTALS                                             $95.892                  $11 ,394.824

*Florida MEP provided only $95,892 in subawardfu.nds. This represents less than l%ofthe $11.4 million in. total
finds claimed by Florida MEP as cost-share.

None ofthe eight organizations' incorporated the subaward into their financial management
system so that the accounting for the award met the minimum requirements described above. For
example, none ofthe eight organizations received the required line-item and object-class budget
in their agreements with Florida MEP and, consequently, none ofthe eight organizations
compared outlays with budget amounts-a financial management requirement of the award.




                                                        3

U. S. Department ofCommerce                                                         ReportATL-18568 

Office ofInspector General                                                               March 2009 




Representatives at seven ofthe eight organizations stated they do not consider themselves to be
subrecipients ofFlorida MEP. Only representatives from the University ofNorth Florida (UNF)
said they considered the university a subrecipient. However, we questioned costs claimed by
Florida MEP from UNF because it did not have an adequate financial management system.

NIST's 2005 operating plan guidelines for MEP centers required certain provisions to be
included in all subaward agreements. These included identification ofNIST MEP cooperative
agreement number, program number in the Catalog ofFederal Domestic Assistance (CFDA) and
notification ofthe terms and conditions and other award principles that flow down from the
NIST Cooperative agreement. We noted that the Florida MEP did not include the NIST CFDA
number in any ofthe subagreements and there was not a complete flow-down ofNIST terms and
conditions from Florida MEP.

For example, while the identification and reporting of program income is specifically included in
Florida MEP operating plan guidelines, Florida "MEP did not require its subrecipients to report
program income. In addition, the eight organizations did not have written procedures in place to
determine if amounts reported to Florida MEP met allowability criteria established by applicable
federal cost principles. Instead, Florida MEP determined which ofthe subrecipients' operating
expenses to include as costs associated with the "MEP project.

Based on these findings, we questioned all the costs claimed by Florida MEP related to the eight
subawards. However, there are two issues related to the subrecipient costs that are secondary to
the financial management system issue.

The cooperative agreement's special award condition states that "at least one-half ofthe
recipient's costs share must be in cash." According to 15 CFR 14.2(g), "Cash contributions
means the recipient's cash outlay, including the outlay of money contributed to the recipient by
third parties." We found none ofthe $11.4 million claimed as cash match actually involved cash
contributions or the outlay of money contributed to Florida MEP. This claimed amount does not
qualify as cash match under 15 CFR 14.2(g).

In addition, we tested expenses claimed as cash match for the University of Central Florida, the
Economic Development Commission ofFlorida's Space Coast and the First Coast Manufacturers
Association. We found most costs claimed would likely be questioned as unallowable because of
noncompliance with the cost principles.

GRANTEE RESPONSE

The grantee disagreed with the draft report findings regarding the questioned cost-share and
third-party contributions, stating that the most glaring omission in the draft audit report was its
failure to acknowledge or apply the statutory authorization for the "MEP program that is
applicable to Florida MEP' s agreement. According to the grantee, the draft audit report simply
ignores the fact that the authorizing MEP statute assigns to Florida "MEP the responsibility of
establishing that all nonfederal costs are programmatically reasonable and allocable under MEP
program procedures.

                                                 4

U. S. Department ojCommerce                                                         Report ATL-18568 

Office ofInspector General                                                               March 2009 




As support for its position, the grantee cited section 3003(a)(3)(C) ofthe America COMPETES
Act, P.L. 110-69, which was enacted in August 2007, and stated that language in that provision
amended the MEP statute to clarify how the MEP center's cost contributions are to be
determined. According to the grantee, such a clarification was necessary after prior audits of
MEP centers in the 2003 time frame resulted in proposed findings and recommendations that
were ultimately found to frustrate the mission, structure, and purpose ofthe MEP program as
conceived by Congress.

The grantee stated that the provision cited above clarifies the nature and classification of
nonfederal costs contributed by partnering organizations. The response quotes the legislation,
stating that "All non-federal costs contributed by such entities and determined by a Center
(emphasis added) as programmatically reasonable and allocable are includable as a portion ofthe
Center's contribution." According to the grantee, this amendment to the MEP statute clearly
gives the center the authority for determining which costs are programmatically allocable and
reasonable and therefore allowable and that, as evidenced by the documents reviewed by the
auditors, Florida MEP reasonably made this determination for each of its partners based on the
information reviewed by Florida MEP officials.

The grantee also stated its beliefthat the draft report was incorrect to conclude that the Florida
MEP partners did not have the required financial documentation to support the assistance
provided to Florida MEP's program. According to the grantee, each ofthe partners maintained
and made available documents that allow a reasonable finding that costs expended were
(1) reasonable, {2) allocable to Florida MEP' s mission of assisting small and medium-sized
manufacturers in Florida, and (3) allowable pursuant to statutory and regulatory authority,
federal cost principles, NIST guidelines, and the terms and conditions of Florida MEP's
agreement.

The grantee's complete response is included, without exhibits, as appendix D.

OIG COMMENTS

We reviewed the complete response ofFlorida MEP. We determined that the findings in the draft
report were not refuted by the statements and assertions made by Florida MEP' s counsel.

We found that the grantee's conclusion that a change to the MEP statute resulting from the
America COMPETES Act clearly places authority for determining the reasonableness and
allocability of contributions on the centers is not supported by a straightforward textual analysis
ofthe provision in question. The critical sentence ofthe relevant change to the MEP statute reads
as follows:

       All non-Federal costs contributed by such entities and determined by a Center as
       programmatically reasonable and allocable under MEP program procedures are
       includable as a portion ofthe Center's contribution. 15 U.S. C. §278k(c)(3)(C).




                                                 5

 U. S. Department ofCommerce                                                        ReportATL-18568 

 Office ofInspector General                                                              March 2009 




 There is no question that this provision authorizes centers to make determinations as to the 

 reasonableness and allocability of contributions they receive. That those determinations are not 

·final is evidenced by use ofthe permissive word "includable," as opposed to mandatory language
 such as "shall be included" or "must be included." Such determinations must also be made
 pursuant to MEP program procedures, which explicitly call for the centers to make a
 determination ofwhat costs to claim and not what costs to allow, state that the cost principles
 apply and provide for program review of a recipient's claimed costs, with authority to make final
 determinations of reasonableness and allowability resting with the government. In light ofthe
 foregoing, the only reasonable construction ofthis sentence is that it recognizes that centers
 make initial determinations about contributed costs that can be claimed by a center, but that those
 determinations, pursuant to MEP program procedures, are subject to review by the government
 and do not mean that the costs must be allowed by the MEP program. Nothing in t~s la~age
 or any other provision ofthe act gives the centers authority to make final and unreviewable
 determinations ofthe reasonableness or allocability of costs contributed by third parties with
 which the centers partner.

Although the grantee did not address the issue in its response, it should be noted that the
amendment ofthe MEP statute made by the America COMPETES Act occurred after the period
audited and would therefore ordinarily not be applied retroactively. Because the relevant change
to the MEP statute clarifies congressional intent without materially altering the rights and
obligations ofthe grantees, the change can be retroactively applied. It should be noted that had
the interpretation posited by the grantee been correct, then under well-established principles of
law it would not be eligible for retroactive application, as it would constitute a significant change
in law that would materially alter grantees' rights and obligations under the program.

 Florida MEP also did not present evidence or documentation to show claims were based on 

 actual costs incurred under the subaward agreements, nor did it present any evidence that the 

-subrecipients had financial management systems that met the requirements of 15 CFR 14.21. The
 subrecipients (1) did not compare outlays with budget amounts for their subawards, (2) did not
 report actual costs incurred under the subawards, and (3) did not have written procedures to
 ensure compliance with federal cost principles. Florida MEP presented no additional evidence
 that third-party contributor documentation met NIST requirements. Accordingly, we have not
 modified the draft report's findings and conclusions.

$512,998 UNSUPPORTED AND UNREASONABLE CONSULTANT COSTS

We questioned $512,998 in claimed consultant costs by Florida MEP because of inadequate 

supporting documentation and unreasonable duplication of contract services under the existing 

management contract with Timewise Management Systems, Inc. 


Timewise Management Systems is a for-profit corporation doing business as Manufacturing
Extension Partnership Management Services (MEP MSI) that offers management and consulting
services, such as financial, communications, business planning, and government relations
services to a number of corporations and other entities nationwide. Timewise has provided
services to Florida MEP since 2001 and also works with four other MEP centers: Arizona MEP,
New Hampshire MEP, Maine MEP, and Massachusetts MEP.
                                                6
U. S. Department ofCommerce                                                        ReportATL-18568 

Office ofInspector General                                                              March2009 



OMB A-122, Cost Principles for Non-Profit Organizations, Attachment A, Section A(2)(g)
and A(3), states that for costs to be allowable under an award, they must "be adequately
documented." and that the "cost is reasonable if, in its nature and amount, it does not exceed that
which would be incurred by a prudent person . .. •• The questioned costs of$512,998 includes
$         in four contracts to Timewise in addition to its negotiated management contract;
$183,500 in five other consultant contracts; and $113,748 in two employee share contracts with
the Massachusetts MEP.

~- Additional Timewise Contracts

We questioned ~n claimed consultant costs including $39,498 claimed incorrectly
under a marketing account. In 2005, Florida MEP paid Timewise - a s part of its ongoing
management contract. NIST reviewed and approved this management contract, as with all
contracts o v e r $ - However, in February 2~da MEP entered into four additional
contracts with Timewise at a combined value of~ Timewise's president/CEO presented
the four contracts to Florida MEP's board ofdirectors at a meeting on February 24, 2005, the
same day the four contract agreements were signed. The four contracts were valued at less than
$-each, and consequently did not require written prior approval from NIST (see table 2).

Table 2. Annual Contract Amounts with Timewise
 Annual Contract Amount
                                                       Contract Description




The four contracts required Timewise to submit invoices along with monthly status reports. The
status reports were to include a summary ofwork performed and results obtained. Florida MEP
provided OIG auditors with the contract agreements as support, because the invoices did not
contain the required information. We do not consider the contract agreements to be adequate
documentation.

In addition, tasks in the additional Timewise contracts appear to duplicate tasks already included
in the Tirnewise management contract. A Timewise official stated that the additional contracts
were for more specific purposes than the approved management contract. The contracts were to
bring the same Supply Chain initiatives being implemented in the New England area to Florida.

We compared the additional contracts' duties with the original management contract and carne to
a different conclusion. (See table 3.)




                                                 7

U. S. Department ofCommerce                                                   ReportATL-18568 

Office ofInspector General                                                         March2009 



Table 3. Timewise Contracts
    Title and Monthly
                            Tasks under Additional               Tasks under Timewise
 Expense for Additional
                             Timewise Contracts                  Mal!!e,ent Contract
    ·JD11ewise Contracts
                                                                   ~per month
                 month




All four contracts, approved by the Board ofDirectors, contained a clause stating Florida MEP
cannot use federal funds for contract fees. However, our audit found MEP funds were used to
pay Timewise. Timewise officials stated this clause was later waived by verbal agreement of
Florida MEP and Timewise because it was determined that these costs were allowable. However,
we could find no evidence that the board ofdirectors had been informed ofthe change in the
terms ofthe contract with Timewise. We concluded the four additional contracts should not have
been claimed under the NIST MEP award.

$183.500- Unsupported and Unreasonable Consultant Services

We questioned $183,500 for five consultants because oflack ofadequate supporting
documentation and unreasonable duplication ofservices for work that should have been
performed by Timewise in accordance with the terms ofits management contract.

iliiistioned amount includes

Management. (See table 4.) In addition, we are questioning
discussed on page 10.




                                               8

U. S. Department ofCommerce                                                          Report ATL-18568 

Office ofInspector General                                                                March2009 



Table 4. Unreasonable                                  Services
      ~ultant                                                                 Timewise Contract
     ~per month                                                              Management Services




The invoices submitted by the consultants listed above did not include details ofthe services
provided or the specific dates ofthe services performed as required by the contract agreements.
The invoices only included the monthly requests for the contract payments. We did not accept
the monthly invoices without any supporting detail as adequate support for the consultant costs.

Timewise officials stated the consultants are available on an as~needed basis at the request of
Florida MEP and can independently identify the activities that are consistent with the scope of
work oftheir contracts. Timewise officials also said the monthly requests for payments are the
same as the work performance dates. We do not agree that consultants should be paid to make
their services available if there is no immediate need. In addition, it appears that the services that
are covered by the contracts should be provided by Timewise in accordance with the original
management contract. If Timewise does not have the staff or expertise to provide the services
Florida MEP needs, then Timewise should be responsible for subcontracting consultants.

We questioned a $~ntract                                                   and a $ ­
ongoing contract over ~onths                                 because of duplicatio~rvices
~rting invoices that                      not                  services performed.
-                     s owned by the former director ofthe NIST MEP program.

    '4U'J""~'"........ ~onths ofconsultant costs (~ paid to a consultant who is both the
           the U.S. ~Mexico Chamber ofCommerce and the owner of
         We questioned $7,500 ofthe ~claimed because of,uau'IO'\.IIUGI>'IO' SllDDI()ttmsz
documentation. Florida MEP reimbursed Timewise for payments made on its behalf from
                                                  9

 U. S. Department ofCommerce                                                      Report ATI.rl8568 

 Office ofInspector General                                                            March2009 



August 2005 through January 2006. According to the Timewise agreement effective May 2005,
it had a $-per month consulting agreement with t h e - o f t h e U.S.- Mexico Chamber
ofCommerce. Timewise billed each of its four MEP centers one-fowth ofthe total amount so
that each center, including Florida MEP, was billed $-each for a total oflmonths. The
supporting invoices for the Timewise contract did not contain adequate documentation. The
questioned amount represents lmonths of reimbursement costs billed to Florida MEP.

We questioned the remaining $-over ~onths because ofinadequate supporting invoices
that did not ·         · services               and duplication of services. This consultant
contract ·                                      in January 2006 where the p . ~ t    •' I • "1 with
the U.S. - Mexico Chamber                ended. Supporting invoices forth    ;.

~ontract did include a description of some ofthe work performed during the month.
However, the invoices did not include specific details ofthe services performed, the days the
services were performed or time needed, or results of services.

~uestioned ~over .months for an ongoing contract w i t h ­
-because ofinadequate supporting invoices that did ~~rmed
and duplication of services. The company is owned by a . . . . - r r o m Maine. After our
request for supporting documentation, Florida MEP provided a two-page document from the
company that listed service performances over a 2-year period from March 2005 thru July 2007.
This one-time document served as the only support offered for monthly invoices paid by Florida
MEP at $~r month. The document listed services performed but did not provide the
details ofthe specific month or day that the services were performed or any results obtained. In
addition, the contract covers the same services Timewise agreed to perform in its contract as
managing agent.

We              $ - i n one-time consultant costs paid to Timewise as reimbursement for
                 b:'se of inadequate documentation. ~illed Timewise ~for
services under the Supply Chain program. Timewise did not proVIde a contract to support these
 costs or show why these costs should be divided and charged equally to Florida MEP and
 Massachusetts MEP. The invoice was supported by a memo stating that a board member(­
- i s affiliated with a Florida MEP board member) had conducted various meetings and
~telecommunications support. We do not consider the memo sufficient support to accept
 an invoice charged to Timewise and divide the costs between two of its MEP centers.

$113.748 - Unsupported and Unreasonable Massachusetts MEP Shared-Employee Contracts

We questioned $113,748 in consultant costs for two employee-sharing contracts because of
inadequate supporting documentation and unreasonable duplication ofservices (see table 5). The
two contracts were between Florida MEP and Massachusetts MEP (also managed by Timewise).
Both employee sharing contracts were signed by the Timewise president/CEO representing
Florida MEP.

Ofthe $113,748, we questioned ~for an ongoing contract with Massachusetts MEP. The
purpose ofthe contract was to share an employee' s time between two MEP centers to support the
Florida Supply Chain initiative. The contract allowed Massachusetts MEP to charge half an
                                                10
U. S. Department ofCommerce                                                        ReportATirl8568 

Office ofInspector General                                                              March2009 



employee's salary, including benefits, to Florida MEP (not to exceed $. .per month).
Invoices and time sheets submitted by Massachusetts MEP were not supported with specific
details ofthe services performed or the results of those services.

We questioned $ - n consultant and related travel costs under a January 2007 contract for a
second Massachusetts MEP employee as duplication ofservices and unreasonable travel costs.
The questioned contract costs covered 20 workdays from February 5, 2007, through March 2,
2007, at ~er day plus related travel costs. The contract was for Florida MEP to retain an
experienced and knowledgeable third-party resource to assist in delivering services under the
Department ofLabor Advanced Manufacturing H-lB Grant Sustainment Plan. This employee
was later hired by Florida MEP on March I, 2007. However Massachusetts MEP
reimbursements included travel costs claimed for March I - 2, 2007, including return airfare
from Florida to Maine on March 2, 2007.

Table 5. Massachusetts MEP
  Massachusetts               Employee Contract                      Timmse Contract
     MEP                             Services                       Management Services


    E. .l

    ~s


    E~-2
   ~!Workdays


GRANTEE RESPONSE

The grantee did not agree with the questioned $5I2,998 in additional contract costs, stating that
the additional contracts were clearly outside ofthe services performed under the Timewise
management contract. The grantee stated that table 3 ofthe audit report is (1) misleading as to
how the actual contracts are written; (2) does not provide an accurate representation of the actual
tasks assigned to the contracts; and (3) incorrectly concludes, without actual documented
support, that the tasks were duplicative.

The grantee stated that contrary to the audit report, the additional contractors (1) did provide
periodic written summaries ofactivities performed; (2) were in regular communication with
Florida MEP officials (via telephone conferences, ~mail and face-to-face meetings), which was
reflected by the supporting invoices; and (3) were determined by Florida MEP to be used on a
limited basis. The grantee also contended that the contract rates were reviewed and determined to
be reasonable and consistent with all ofthe services provided.


                                                11
U. S. Department ofCommerce                                                        ReportATL-18568 

Office ofInspecror General                                                              March 2009 




The grantee stated that both Massachusetts employees recorded time worked and a summary and
detailed description ofthe scope ofwork and nature ofservices was in the Massachusetts MEP
center database. The grantee also stated that travel costs for employee 2 were incurred on Florida
MEP' s behalf and were reasonable, allowable, and necessary for the accomplishment ofprogram
objectives.

The grantee did not address the contract payment clause contained in the four additional Supply
Chain contracts that required the contract payments to be paid outside ofFlorida MEP's federal
funding resources.

OIG COMMENTS

We do not agree with the grantee's response that the additional contracts were outside ofthe
services performed under the Timewise management contract. Tables 3, 4 and 5 in the audit
report compare the scope ofwork in the additional contracts against the Timewise management
contract. The scope ofwork information was obtained directly from contract agreements, and
this information supports the audit conclusion ofunreasonable duplicative contract services.

The contract agreements required monthly summaries to be submitted with the contract invoices
for payments. Monthly invoices reviewed did not contain the summaries and status reports. The
invoices also did not reflect any form ofcommunications (verbal or otherwise) between the
contractor and Florida MEP officials.

The grantee stated that the consultants for these additional contracts were used on a limited basis.
However, we continue to question the reasonableness ofthe claimed services as well as the lack
ofadequate documentation to support the servi~s performed.

The grantee did present Massachusetts MEP employee time sheets. Howev.er, the time sheets did
not provide a monthly detailed written summary ofthe results ofservices claimed to have been
provided. The audit report questioned travel costs for employee 2 because the entire contract was
also questioned for unreasonable duplication ofTimewise management contract services.

 The Timewise management contract with Florida MEP has a clause that allows Timewise to
 enter into specialized professional and consulting agreements. However, the management
·contract clause limits Timewise to an amount not to exceed $ . , e r month. As presented in
 the audit report, ~per month was claimed for additional contract services in table 3;
 $~er month in table 4· and ~r month (~overllllnonths) in table 5 for
 employee 1. This totals ~er month claimed for the additional contract services-or more
 than ~per month than what the contract clause allows.

Finally, the grantee failed to address the clause contained in the four additional Supply Chain
contracts that required payments to be paid outside ofFlorida MEP's federal funding resources.

We continue to question the entire $512,998 for additional contract costs as unsupported and
unreasonable.

                                                12 

U. S. Department ofCommerce                                                        ReporlATL-18568 

Office ofInspector General                                                              March 2009 




$164,836 UNREASONABLE AND UNALWWABLE OTHER DIRECI' COSTS

We questioned $164,836 in other direct costs because of the unreasonableness ofthe claimed
expenses. Ofthe $164,836, we questioned $ - f o r the purchase of excess training
materials; $~or the unreasonable purchase ofT-shirts for center employees; $ - i n
unallowable bad debt costs; and $ - i n unreasonable rental space costs. OMB A-122, Cost
Principlesfor Non-Profit Organizations, Attachment A, Section A (3) states, "a cost is
re3sonable if: in its nature and amount, it does not exceed that which would be incurred by a
prudent person ... "

~- Excess Training Materials Costs

We questioned $ - n trai~aterials as unreasonable. Florida M.EP's training materials .
inventory has increased from ~at April 30, 2006, to $ - a t April 30, 2007. OMB
A-122, Cost Principles for Non-Profit Organizations, Attachment A, Section 28 states
" ... Materials and supplies charged as a direct cost should include only the materials and supplies
actually used for the performance ofthe contract or grant, and due credit should be given for any
excess materials or supplies retained ... " The majority oftraining materials were purchased
directly from Timewise, Florida MEP' s managing company.

Florida MEP officials told us they maintain an inventory because it takes 2 weeks for Timewise
to deliver training materials. Officials also stated training materials purchased from other
vendors are usually delivered in less than 2 days, and ordering the training materials in bulk from
Timewise does not reduce the price. We did not accept this explanation as adequate support for
maintaining this unreasonable excess inventory.

~-Unreasonable T-Shirt Purchases

We questioned $- i n T-shirt and related clothing purchases for Florida MEP employees as
unreasonable. Florida MEP officials stated T-shirts are provided to employees to use as a
uniform for identification when visiting clients and partners and attending events. However, this
amount is excessive for the 21-month audit period reviewed. For example, we reviewed Florida
MEP's claimed personnel costs for September 2005, March 2006, and January 2007. The review
revealed an average of 24 employees per month. When we co~ed this to the amount of



i- -
purchases for this same time period, the average was almost $.,er employee spent on
T-shirts. We believe this is an unreasonable and excessive amount forT-shirt expenses.

          Unallowable Bad Debts

We questioned ~for bad debt expenses as unallowable costs. These bad debt costs
represent three uncollected accounts receivable that Florida MEP claimed against the NIST
award. O:MB A-122, Cost Principles for Non-Profit Organizations, Attachment             · 3,
states that bad debts are unallowable. Florida        claimed bad debts ~~· ~lvlu'u'~'u
                                $-from                        and


                                                13 

U.S. DepartmentofComml!rce                                                        Report AT/A8568 

Offu:e ofInspector General                                                             March 1009 




Florida :MEP agreed that these costs were unallowable during our audit fieldwork. Alth<22...
JWie 30, 2007, is outside our audit scope, we noted that Florida :MEP claimed another $~
bad debt expenses. Florida :MEP needs to adjust its claim for that quarter.

~-Unreasonable Rental Space Costs

We questioned $. .in unreasonable rental space costs claimed as dues and subscriptions. The
             · to Timewise as a reimbursement for a rental agreement between Timewise and ·
                                       toaltea in Washington, D.C.

Under the rental agreement, Timewise pays the                                month for use
of office space in Washington, D.C. The monthly rental costs are then       Timewise to
its five MEP Centers: Florida MEP, Arizona :MEP, Maine :MEP, Massachusetts MEP, and New
Hampshire MEP. Each MEP Center was charged $.per month. We are not convinced ofthe
need for Florida MEP to pay to maintain office space in Washington, D.C.

GRANTEE RESPONSE

The grantee did not agree with the costs questioned for training materials inventories, T-shirt
purchases, and rental space. The grantee stated that Florida :MEP policy allows project managers
to request in advance training materials needed for a 4- to 6-week period. The grantee also stated
that location and process changes have allowed the reduction of on-hand inventory and Florida
MEP had returned 45 incomplete training items. The grantee also submitted an April2008
training materials inventory list valued at ~

The grantee stated that T-shirt purchases were for branded shirts, similar to uniforms, which
were provided to Florida MEP center emp~=s so that clients and event attendees could
identify them. The grantee stated that the ~per emzlee represented the initial start-up costs
in 2005 and that the costs have now been reduced to         er employee.

                                          space was related to work between Florida MEP and
                                           The grantee also stated that the rental space provided
cost-effective office and meeting space for Florida MEP representatives while in Washington,
D .C., to work on proposals, meet with federal officials, and conduct other Florida MEP business.
The grantee did agree that the ~in bad debts was unallowable.

OIG COMMENTS

We do not agree with grantee' s response regarding questioned training materials costs. The
grantee failed to show the need for a 4- to 6-week inventory buildup of training materials,
especially when most of the training materials are purchased from Ti_?I~ as discussed in the
audit report. The grantee submitted a trainin~ials inventory of ~in 2008, subsequent
to our audit period, which is less than the $- q uestioned for 2007 in the audit report.
However, we consider either amount to be excessive and unreasonable and continue to question
these costs.

                                                14 

 U. S. Department ofCommerce                                                     ReportATL-18568 

 Office ofInspector General                                                           March 2009 




We do not agree with grantee' s response regarding the questioned T-shirt purchases. The grantee
stated that the $.per employee T-shirt was for initial start-up costs. The grantee also stated
that the T-shirt cost is currently . p e r employee. We consider both amounts excessive and
unreasonable. We continue to question the costs claimed.

Finally, we do not agree that there is a demonstrated need for Florida MEP to maintain rental
space in Washington, D.C. We continue to question these costs as unreasonable.

$99,738 UNALWWABLE THIRD-PARTY CONTRIBUTOR COSTS




NIST General Terms and Conditions, Section 14, states MEP centers must have documented 

evidence ofthe third party in-kind contributions from the contributors. This evidence must 

include the following documentation from the contributors: 


    • 	 A list ofthe type ofthird-party in-kind contribution
    • 	 Value of each third-party in-kind contribution
    • 	 If personnel time is being contributed: a list ofthe personnel; the projects and tasks
        worked; the dates and number of hours worked; the hourly salary rate with the allowable
        fringe benefits paid; and certified time and attendance records
    • 	 Any necessary scopes of work and contracts including cost or price information
    • 	 Percentage oftime that the contribution was used to support the MEP project

Third-party in-kind contributions must be evidenced by written documentation signed by the
contributor and MEP center descnbing the contribution, its value, when and for what purpose it
was donated. The MEP center must provide an acknowledgement ofthe contribution.

- a n d ~id not maintain required proper records or generate financial reports detailing
the value of services direct~efiti~specifically identifiable to the Florida MEP project.
The $~laimed from-and -                       were not for contributions of cash, real property,
equipment, supplies, goods, or services, but rather expenses incurred by the organizations for
their own~o-da~ess operations. None ofthe documentation maintained by Florida
MEP for-and~et requirements, and we questioned the entire amount claimed.

We also questioned $-claimed for Florida MEP' s board of director contributions because
Florida MEP did not follow the required valuation procedures. Florida MEP used a flat rate of
$.to value the board member's time without any ofthe required supporting documentation
showing rates paid for similar work. Furthermore, the value ofthe board members donated
services should be allocated across all ofFlorida MEP cost centers rather than just MEP
activities. Florida .M.EP had two other non-MEP awards during the audited period that were

                                               15 

U. S. Department ofCommerce                                                         ReportATL-18568 

Office ofInspector General                                                               March2009 



treated as separate costs centers along with a cost center for indirect costs and nonfederal
expenditures.

In addition, we questioned the -claimed as in-kind cost-share from the
~ecause there was no documentation to support it.

GRANTEE RESPONSE
The grantee stated that it maintained the required documentation for each ofits third-party
contributors and the documentation was available to the auditors.

OIG COMMENTS

We disagree that the grantee maintained the required documentation. As noted in the draft report,
according to the regulations, third-party in-kind contributions must be evidenced by written
documentation signed by the contributor and Florida MEP describing the contribution, its value,
the date the contribution was made, and the purpose ofthe donation. :Borida MEP must provide
an acknowledgement ofthe contribution. None ofthe documentation maintained by the grantee
describes the contribution, its ~alue, or when and for what purpose it was donated because there
was no actual in-kind donation ofpersonnel time, property, or supplies.

$57,760 UNALLOWABLE LOBBYING COSTS

OMB A-122, Cost Principles for Non-Profit Organizations, Attachment B, Section 25 (a)
(3) through (5) prohibit attempting to influence federal or state legislation through
lobbying and a variety ofother activities. Based on this guidance, we questioned $57,760
in claimed costs as unallowable lobbying expenses. The questioned costs involve
membership dues for two lobbying organizations and related travel costs.

~American Small Manufacturers Coalition

Florida MEP paid a total o f $ - ( $ - p e r year for 2 ye~embers~s to the
American Small Manufacturers Coalition (ASMC). It claimed - o fthe $ - a s direct
costs to the NIST project. The remaining balance of ~as charged as nonfederal as part
ofthe ~escribed on page 23 ofthis report. According to ASMC's web site, it advocates
for legislative and programmatic resources that allow small manufacturing clients to better
compete in the global marketplace. ASMC and its members do this by increasing awareness of
the importance of American small manufacturers, the challenges which they face, and the federal
legislation and programs which affect them. Among other activities undertaken by ASMC are
yearly ''Hill Day" events in Washington, D.C., where its staff, members and clients advocate for
support for the MEP program from Congress during the federal appropriations process. Based on
informatio~rted to the Secretary ofthe United States Senate, it appears that ASMC
incurred ~in expenses relating to lobbying activities for the period from July 1, 2005,
through June 30, 2007.


                                                16 

U. S. Department ofCommerce                                                         ReportATL-18568 

Office ofInspector General                                                               March2009 



Section B.30 ofOMB A-122 provides that the costs ofan organization's membership in a
business, technical or professional organization are allowable. Section B.25(a) ofthat circular
states that, notwithstanding any other provision of the circular, costs associated with certain
types of lobbying activities (including attempts to influence the introduction of federal or state
legislation, the enactment or modification ofpending federal or state legislation through
communication with any member or employee ofthe Congress or State legislature, or any
government official or employee in connection with a decision to sign or veto enrolled
legislation) are unallowable.

Although Section B.30 would ordinarily allow us to accept the costs of dues paid to a business,
professional or technical organization like ASMC, ASMC clearly engages in the type of
lobbying activities that are prohibited by Section B.25(a) and the circular expressly states that
costs associated with such activities are unallowable notwithstanding any other provision ofthe
circular. Because we cannot tell from the ASMC invoices which portion ofthe dues paid
supports prohibited lobbying activities and which portion funds activities that might be allowable
under the circular, we are questioning the $ - i n membership dues paid to ASMC as
unallowable lobbying costs.

~- Manufacturers Association ofFlorida

Florida MEP claimed a total of~($~r year for 2 years) in membership dues
Florida .MEP paid to the Manufacturers Association ofFlorida (MAF). The Florida MEP Board
 ofDirectors approved this membership when MAF was formed in 2006. When the membership
was approved by the board, one ofthe board members (who was als6 the president ofMAF) said
that MAF' s board members were lobbying for Florida manufacturing interests and meeting with
the Governor's office on a weekly basis. MAP also sponsors an annual "Manufacturers Days at
the Capitol" event in Tallahassee, Florida. This event allows MAF members and manufacturers
to meet with state legislators. Florida .MEP' s check for membership dues was made payable to
the executive director ofMAF, who is a registered lobbyist with the state ofFlorida.

As was the case with ASMC, although Section B.30 would ordinarily allow us to accept the costs
of dues paid to a business, professional or technical organization like MAF that clearly engages
in the type of lobbying activities that are prohibited by Section B.25(a) ofOMB Circular A-122
and the circular expressly states that costs associated with such activities are unallowable
notwithstanding any other provision ofthe circular. Because we cannot tell which portion ofthe
dues paid to MAF support prohibited lobbying activities and which portion funds activities that
might be allowable under the circular, we are questioning the entire - n membership dues
paid to MAF as unallowable lobbying costs.

~- ASMC Public Relations Campaign

We questioned $--lorida MEP claimed to ASMC as a public relations campaign expense
in February 2007. ASMC had received funds from Florida .MEP and three other Timewise
managed MEP centers (Arizona, Massachusetts, and New Hampshire) to lobby against a
proposal to change the national MEP system. However, the proposal was cancelled, and ASMC
returned the funds in May 2007 (after the period ofthis audit).
                                                17
U. S. Department ofCommerce                                                     ReportATL-18568 

Office ofInspector General                                                           March 2009 



~Lobbying Travel Costs

Florida MEP claimed ~n travel costs for expenses incurred by the former center director
and former and current board members who attended lobbying events sponsored by ASMC in
Washington, D.C., and by MAF in Tallahassee, Florida. The lobbying events were "Hill Days"
sponsored by ASMC in Washington, D.C., and "Manufacturers Days at the Capitol" sponsored
by MAF at Florida State Capital in Tallahassee, Florida. We are questioning membership dues
paid to both these organizations by Florida MEP because oftheir lobbying activities. We are now
questioning the travel costs by Florida MEP officials to attend these lobbying events, which
seem to be the type oflobbying activity prohibited by Section B(25)(a) ofO:MB Circular A-122.
Ifdues to organizations are unallowable because they are engaging in prohibited lobbying, then
travel expenses to events sponsored by those entities that appear to be prohibited lobbying are
unallowable as well.

GRANTEE RESPONSE

The grantee did not agree with the questioned lobbying costs. The grantee stated that the OIG
inaccurately assumed that all costs associated with ASMC and MAF were lobbying costs and
contended that the questioned costs failed to meet the lobbying definition, or were simply
excluded from unallowable costs, under OMB Circular A-122. The grantee stated that the
membership dues were not used to (1) influence the outcomes of any elections, (2) assist any
political party in campaigning or other political activity, (3) influence introduction or
modification of any pending legislation, or (4) otherwise constitute unallowable lobbying.

The grantee stated that both ASMC and MAF have taken measures to ensure that funds allocated
for lobbying are separated from membership dues. The grantee stated that ASMC Hill Days and
MAF Capital Days events merely provide information to members of Congress about the needs
of small manufacturers as well as the successes ofthe MEP program. The grantee stated that
ASMC uses allocated lobbying funds for Hill Days activities but not Florida MEP membership
dues.

The grantee agreed that $ - o fthe - i n questioned lobbying travel costs associated with
ASMC Hill Days and MAF Capital Days should be disallowed. However, the grantee stated that
questioned travel costs ofSllllwere not allocable to or claimed under the Florida MEP
agreement. The grantee stated that the $~as returned to Florida MEP after the ASMC
Public Relations Campaign was cancelled, and MEP officials did not understand the reason for
including it in the audit report.

OIG COMMENTS

We do not agree with the grantee's response to questioned lobbying costs. The grantee did not
provide adequate documentation to support the claim that Florida MEP membership dues paid to
ASMC were not used for lobbying activities. The grantee did not submit a letter from ASMC
related to Florida MEP membership dues or provide any documentation to support the claim that
Florida MEP membership dues paid to MAF were not used for lobbying activities. At a
minimum, the grantee should provide financial records from both ASMC and MAF that
                                               18
U. S. Department ofCommerce                                                       Report ATL-18568 

Office ofInspector General                                                             March2009 




demonstrate the membership dues from Florida M.EP were accounted for separately from other
revenues collected and that the use ofthe membership dues was restricted to nonlobbying
activities.

As mentioned to the grantee at the audit fieldwork exit conference, the $~SMC Public
Campaign costs were questioned because the funds appeared to be a lobbying expense and the
funds were not returned to Florida :MEP until May 2007. This was after the audit cutoff date of
March 2007. We explained to the grantee that the ~was claimed and posted in the general
ledger before the audit cutoff date ofMarch 30, 2007.

The grantee stated that ~n lobbying travel costs were not allocable to or claimed under the
NIST agreement. However, our review ofthe Florida :MEP' s travel records showed that these
costs were incurred for the ASMC Hill Days by a Florida :MEP board member in March 2007.
On March 19, 2007, ~th a $~adjustment was posted to the grantee's financial travel
records and claimed against the NIST agreement. We continue to question these lobbying travel
costs.

4IIIUNREASONABLETRAVELCOSTS
Florida :MEP claimed travel expenses for both a former Massachusetts :MEP employee hired by
Florida :MEP and a Florida :MEP board member who did not have a written consultant agreement
with the company. We questioned the total o f - i n claimed travel costs as unreasonable.

OMB A-122, Cost Principles for Non-Profit Organizations, Attachment A, Section A(3) states,
"a cost is reasonable if, in its nature and amount, it does not exceed that which would be incurred
by a prudent person ..." Attachment B, Section 39 states, "Costs ofprofessional and consultant
services rendered by persons who are members of a particular profession or possess a special
skill, and who are not officers or employees ofthe organization, are allowable...when reasonable
in relation to the services rendered and when not contingent upon recovery ofthe costs from the
Federal Government."

-      - Former Massachusetts :MEP Employee

Florida MEP reimbursed 4lllfor travel costs to a former Massachusetts :MEP employee who
was under a consultant contract and later hired by Florida :MEP. Florida :MEP hired the employee
on March I, 2007, but continued to reimburse the employee for travel costs, including weekly
airfares back and forth from Maine to Florida, until AprilS, 2007. We also questioned the
consulting contract with this former Massachusetts :MEP employee 2 (see page I 0).



Florida :MEP reimbursed $ - n travel costs t o - which is owned by a Florida
MEP board member. There was no formal written~ract in place. The supporting
travel voucher listed the contract number as verbal approval from Timewise's president/CEO.
We also questioned additional travel costs to this board member as lobbying costs (see page 18).

                                                19 

U. S. Department ofCommerce                                                                                  Report ATL-18568 

Ofjice ofInspector General                                                                                          March 2009 




GRANTEE RESPONSE

The grantee stated that the - i n questioned travel costs were necessary and reasonable, as
they related to an employee who was relocating his family ·from Maine to Florida. The grantee
stated the employee needed to sell his home in Maine and look for similar housing in Florida.
The grantee agreed with the -questioned travel costs for the Florida :MEP bo¥d member.

OIG COMMENTS

We do not accept the grantee's response as adequate support for the$~ questioned travel
costs. The questioned travel costs included airfares from Portland, Maine, to Ft. Lauderdale,
Florida. The employee was employed at the Massachusetts MEP not the Maine MEP. Florida
MEP is located near Orlando not Ft. Lauderdale, and the grantee failed to explain w'iithe
employee was looking for housing in Ft. Lauderdale. We continue to question the           in
travel costs from the board member as unreasonable.

$386,133 QUESTIONED INDIRECT COSTS

Based on the results of our audit, we questioned $742,782 in direct costs that was the basis for
charging indirect costs on the financial status reports submitted to NIST. Consequently, we also
questioned $386,133 in indirect costs associated with the questioned direct costs. This amount of
indirect costs questioned is based on the percentage used in the claims to NIST for
reimbursement of indirect costs (see table 6).

Table 6.                     Indirect Costs
                                                       For the Period
                                                                                        For the
                                                        July 1, 2005,
                                                                                     Quarter Ending
                                                     Through December
                                                                                     March 31, 2007
                                                          31 2006

    Indirect cost rates used on the
    financial status report submitted to
    NIST
    Questioned indirect costs based on
         ·      direct costs

GRANTEE RESPONSE

The grantee did not respond to this section ofthe audit report.
1
  For the periods ending 9/30/2006 and 12/31/2006, the Financial Status Reports showed the indirect cost rate as~.
however, the rate actually charged was lower. For the pwpose ofthis report we used the stated billing rate since our audit did not
encompass the entire fiscal year and the adjustments to actual had not yet been made. However, during the audit resolution
r.ocess, we will use the actual indirect costs charged during the year along with any carry forward adjustment
  For the period ending 3131/2007, the Financial Status Report showed an indirect cost rate of~, however, the rate actually
charged was higher. For the purpose ofthis report we used the stated billing rate since our audit did not encompass the entire
fiscal year and the adjustments to actual had not yet been made. However, during the audit resolution process, we will use the
actual indirect costs charged during the year along with any carry forward adjustment
                                          .                    20
U. S. Department ofCommerce                                                         Report ATL-18568 

Offzce ofInspector General                                                               March2009 



OIG COMMENTS

Sin9e we have not changed the questioned direct costs in the final report we continue to question
$386,133 of indirect costs.

INCORRECT AND MISLEADING CALCULATIONS USED
TO REPORT EXCESS PROGRAM INCOME

Although Florida MEP had no excess program income, it incorrectly reported excess program
income on its financial status report to NIST and inaccurately reported the same funds as
"umestricted net assets" in its financial statements. An unrestricted asset is an asset that is not
restricted by donor imposed stipulations either permanently or temporarily, such as the
restrictions normally imposed by NIST on excess program income. Florida MEP's independent
public accountant told us the unrestricted net assets were used to pay costs identified by Florida
MEP as unallowable for reimbursement by the federal government.

Program income, as defined in 15 CFR, Section 14.2(aa), represents revenue generated by a
financial assistance recipient as a result ofperforming work under its award. A common source
of program income in MEP centers includes fees paid by manufacturers for services provided by
MEP staff or contractors. NIST' s general practice is to allow MEP centers to use program
income to fund the nonfederal share ofproject costs.

Florida MEP primarily earned its program income from services to clients. According to its
quarterly profit and loss statements, Florida MEP earned ~n program income during
t~arters we audited. According to its financial status reports, Florida :MEP used
~f the program income earned to meet its matching share for the award. Florida MEP
did not provide us an explanation as to why it did not use the remaining $35,085 to meet its
matching share.

We calculated excess program income based on Florida MEP's requirement for cash outlays and
after accounting for questioned project costs. We determined that all ofthe program income
earned by Florida MEP could have been used to meet the matching share requirement ofthe
award with no excess to cany over (see table 7).

Table 7.




                                                21 

U. 8. Department ofCommerce                                                           Report ATL-18568
0/fu:e ofInspector General                                                                 March2009


We found it difficult to understand how Florida MEP came to report excess program income of
$~nits financial status reports to NIST, so we carefully analyzed the partnership's
calculations (see table 8).

TableS.
                                  Total Excess                                        MEP's Share
     Florida MEP Award­
                                  Program Income                                ofExcess Program
    August 1, 2003, Through
                                  Calculated by                                 Income (two-thirds of
       March 31,2007
                                  FloridaMEP                                    total




    For the award period
    beginning August I,
    2003, through March 31,
    2007

Florida MEP' s "Schedule ofUndisbursed Progl-am Income" 3 indicated the $~as only
one-third ofthe amount oftotal excess program incom~da MEP had calculated and
reported to NIST. Florida MEP considered the other $~2/3 ofthe excess program
income computed) as its own income - usable without federal restrictions or oversight.

We found Florida MEP' s accounting was incorrect and misleading in that there was no excess
program income or unrestricted net assets. For t~uarters· of our award period, Florida
MEP calculated excess program income to be $ - - One-third ofthe ex~am
income is $ - T h i s amount was included in the cumulative amount of $~~d
on the financial status report for the period ending March 31, 2007. The difference of~
was deemed excess program income belonging to Florida MEP and treated as an unrestricted net
asset as described below.

According to Florida MEP's independent public accountant, the source ofcash Florida MEP
used to pay expenses included in the "nonfederal" cost center was the funds it called excess
program income. Over the seven quarters we audited, Florida MEP incurred ~
nonfederal costs and used the funds characterized as excess program income to cover costs that
otherwise would not be allowable under any federal award. The remainder ofthe funds

3
    Undisbursed progrnm income and excess program income here are synonymous.
                                                      22
U. S. Department ofCommerce                                                        ReportATL-18568 

Office ofInspector General                                                              March2009 




characterized as excess program income was reported in the financial statements as unrestricted
net assets. As of April30, 2007, the last audited financial statements available, Florida :MEP
reported total unrestricted assets o f $ ­

Florida :MEP spent funds on nonfederal activities and also maintained a growing balance in an
asset account it believed had no federal restrictions. For the seven quarters we audited, Florida
:MEP had more money coming into the organization than it needed to pay actual expenditures
(see table 9).




Florida MEP drew down federal funds to pay for costs it reported to NIST but these costs were
not expenditures requiring cash, such as subrecipient and in-kind costs. By drawing down more
federal funds than needed for cash expenditures Florida MEP was able to grow a reserve
account that was used to inappropriately pay $ - n nonfederal costs during the seven
quarters we audited, with the remainder classified as an unrestricted net asset.

Florida MEP should file corrected financial status reports to show that all program income
earned was used to meet its cost-share requirement under the award and that it has no excess
program income. Financial statements from April 30, 2006 forward must be evaluated to
determine how they should be reissued so that the balance of funds that is currently characterized
as unrestricted net assets is changed to restricted net assets with a corresponding liability to
NIST.

If subrecipient and in-kind costs are not fully disall2~rida MEP should reimburse the
Manufacturing Extension Partnership program the ~spent on nonfederal activities during
the period of our audit.

GRANTEE RESPONSE

The grantee did not agree with the draft audit report's position on excess program income,
stating that the OIG report rejects the concept that Florida MEP co~~te any unrestricted
excess program funds. Florida MEP also disagreed that any of the ~pent on activities in
furtherance ofthe MEP mission must be refunded to NIST.

The grantee makes several arguments regarding program income and its rationale for why it may
keep unrestricted funds. First, the grantee cited a 2001 e-mail from NIST program staff
instructing that the centers could use unrestricted funds for capacity building, as a reserve for
"maintenance of effort," and for other expenditures. In addition, the grantee's interpretation of

                                                23 

U. S. Department ofCommerce                                                       Report ATL-18568 

Offu:e ofInspector General                                                              March2009 



MEP's 2001 Compliance Supplement is that program income is only used to finance cost-share
after all other cost-share is applied. Therefore, ifthe nonfederal portion ofthe award is met
entirely by cost-share there is no obligation to use program income to finance its nonfederal
share ofthe project.

Finally, the grantee supported its statement that it can retain unrestricted program income with
the following: (I) the 2006 MEP General Terms and Conditions states excess program income
may be carried over to the subsequent funding period, ifthe center obtains the grants officer' s
prior written approval, and (2) the 2007-2008 Florida MEP operating plan, which was
subsequently approved by NIST, discloses that $ - h a s been retained as undisbursed
program income. According to Florida MEP, the amount will be kept in the fund balance to
offset risk associated with funding delays in the future.

OIG COMMENTS

The grantee mistakenly suggests that the d~aft report rejects the concept that Florida MEP can
earn program income and retain unrestricted excess program funds. We agree that Florida MEP
can earn program income and retain a portion of excess program income as unrestricted funds,
however, we disagree with the amounts reported to NIST in these categories.

Based on our audit ofFlorida MEP' s accounting records, we reported that Florida MEP used
almost all of its program income to meet its federal match and bad almost no excess program
income for the seven quarters we audited. However,' in reviewing the cumulative fmancial status
reports submitted to NIST and a spreadsheet provided by its i nendent - e public accountant, we
found that Florida MEP reported excess program income of$                   for the award period
beginning August 1, 2003, through March 31, 2007 (as shown in table 8). This inaccurate
calculation led Florida MEP to report to NIST that it had undisbursed program income of
$-(one-third ofthe total excess program income) that it wanted to keep in reserve. This
inaccurate calculation was also the justification for reporting on its financial statements
unrestricted net assets that Florida MEP believes are its own funds - usable without federal
restrictions or oversight.

·Our audit concluded that the calculations reported to NIST on the financial status reports were
 inaccurate and could not be relied on. Florida MEP had retained funds, including federal funds,
 and used these funds to pay for unallowable expenses. During the period of our audit the
 unallowable costs identified in Florida MEP's accounting records totaled $294,000 ..

We disagree with Florida MEP's comments and continue to recommend that MEP should file
corrected financial status reports to show that all program income earned was used to meet its
cost-share requirements under the award and that it has no excess program income. Financial
statements from April 30, 2006, forward must be evaluated to determine how they should be
reissued so that the funds currently characterized as unrestricted net assets are changed to
restricted net assets.



                                                24 

U. S. Department ofCommerce                                                         ReportATL-18568 

Office ofInspector General                                                               March 2009 




RECOMMENDATIONS

We recommend that the chief ofthe NIST Grants and Agreements Management Division

   • 	 disallow $12,623,477 in questioned costs,
   • 	 recover $2,868,393 of excess federal funds, and
   • 	 require Florida MEP to file corrected financial status reports to show that all program
       income earned was used to meet its cost-share requirement under the award and that it
       has no excess program income. The financial statements from April 30, 2006 forward
       must be evaluated to determine how they should be reissued so that the balance of funds
       currently characterized as unrestricted net assets is changed to restricted net assets with a
       corresponding liability to NIST.




                                                25 

         U. S. Department ofCommerce                                                       ReportATL-18568 

         Office ofInspector General                                                             March2009 



                               SUMMARY RESULTS OF FINANCIAL AUDIT

         The results of our interim cost audit for the period July I, 2005, through March 31, 2007,
         which are detailed in Appendix C, are summarized as follows:

                Federal Funds Disbursed                          $5,038,055
                Costs Claimed                 $19,133,115
                Less: Questioned Costs         12.623.477
                Costs Accepted                   6,509,638
                Federal Cost Sharing Ratio     X    33.33%
                Federal Funds Earned                               2,169,662

                Refund Due the Government                        $2.868.393




         ;(a..H1~ ~. a~                                    3/3,;.2~0,
...,4~   Dr. Brett M. Baker                         Date
         Assistant Inspector General
            for Audit




                                                        26 

U. S. Department ofCommerce                                                     ReportATL-18568 

Office ofInspector General                                                           March 2009 




                                                                                   Appendix A

                      OBJECTIVES, SCOPE, AND METHODOLOGY

The primary objective of our audit was to determine whether Florida MEP' s reported costs to
NIST, included claimed subrecipient costs, were reasonable, allocable, and allowable in
accordance with applicable federal cost principles, cooperative agreement terms and conditions,
and NIST policy, including MEP operating plan guidelines. To achieve our objectives, we
interviewed Florida MEP and NIST Grants Office officials, reviewed NIST award documents,
and examined financial records of Florida MEP. We also interviewed officials and examined
financial records of eight Florida subrecipients and examined financial records oftwo
organizations claimed by Florida MEP as third-party in-kind contributors.

The audit scope included a review of costs claimed by Florida MEP during the award period of
July 1, 2005, through March 31, 2007. Our audit objectives included determining the grantee's
progress compared with operating plan performance goals. We reviewed the NIST March 2006
annual assessment ofthe grantee's progress that stated Florida MEP was performing
satisfactorily. We did not independently evaluate Florida MEP's performance under the award.
Additional questioned costs could result from subsequent performance audits. We determined the
validity and reliability of computer-processed data by direct tests ofthe data to supporting
documentation.

Our audit included an assessment ofthe MEP's internal controls applicable to the award to
evaluate the effectiveness ofthe control and accountability systems. We reviewed Florida MEP's
most recent single audit reports for the years ended April 30, 2006, and April 30, 2007,
respectively. An independent certified public accounting firm conducted the audits in accordance
with Office ofManagement and Budget Circular A-133. The reports did not disclose material
internal control weaknesses. We did not rely upon the accounting firm's internal control reviews
but instead determined that we could better meet our audit objectives through testing of
transactions.

We reviewed compliance with laws and regulations as they applied to costs incurred, using as
criteria Office ofManagement and Budget Circular A-21 Cost Principles for Educational
Institutions, Circular A-122, Cost Principles for Non-Profit Organizations, Circular A-133
Audits ofStates, Local Governments, and Non-Profit Organizations, and 15 CFR, Part 14,
Uniform Administrative Requirements for Grants andAgreements with Institutions ofHigher
Education, Hospitals, Other Non-Profit, and Commercial Organizations. We also assessed
compliance with the Department of Commerce Financial Assistance Standard Terms and
Conditions, MEP General Terms and Conditions, and the cooperative agreement Special Award
Conditions. Instances of noncompliance with the above stated laws and regulations are noted in
this audit report.




                                              27 

U. S. Department ofCommerce                                                      ReportATL-18568 

Office ofInspector General                                                            March 2009 




                                                                                     Appendix A

We performed audit fieldwork at Florida MEP' s headquarters in Celebration, Florida, and at
subrecipient locations from May through October 2007. We conducted this audit in accordance
with generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions. The audit was performed under the
authority ofthe Inspector General Act of 1978, as amended, and Department Organization Order
10-13, dated August 31, 2006, as amended.




                                               28 

U. S. Department ofCommerce                                                                       Report ATL-18568 

Office ofInspector General                                                                             March2009 



                                                                                                      AppendixB

                                          FLORIDAMEP 

                       NIST COOPERATIVE AGREEMENT NO. 70NANB3H2002 

                       SUMMARY OF SOURCE AND APPLICATION OF FUNDS 

                             JULY 1, 2005 THROUGH MARCH 31, 2007 


                                                                       Approved                  Claimed
                                                                       Budget (I)          Receipts & Expenses

SOURCE OF FUNDS:

Federal                                                                  $ 6,847,690                   $ 4,694,867
Nonfederal                                                                13.695.379                    14.438.248

Total                                                                    $20 543 069                   $19 133 115


APPLICATION OF FUNDS: 


Personnel
Fringe Benefits
Contractual
Other
Supplies
Travel
Equipment
Partner Match
In-Kind
Indirect Costs

Total                                                                    $20.543.069                   $19 133.115


        J.   The approved budget amounts are for the 2 years ended June 30, 2007. The receipts and expenditures
             are the actual amounts for the period ofour audit, July 1, 2005 -March 31, 2007.




                                                           29 

U. S. Department ofCommerce                                                         ReportATL-18568 

Office ofJnspec/Qr General                                                               March 2009 




                                                                                          AppendixC

                                     FLORIDAMEP 

                  NJST COOPERATIVE AGREEMENT NO. 70NANB3H2002 

                    SUMMARY OF FINANCIAL/COMPLIANCE AUDIT 

                        JULY 1, 2005 THROUGH MARCH 31,2007 


                                                                        Results ofAudit
                       Approved
                                      Costs                 Costs             Costs          Costs
Description             Budget
                                     Claimed              Questioned       Unsupported      Acce,pted
                       Accepted

Personnel                                             $   0                   $      0
Fringe Benefits                                           0                          0
Contractual                                        473,500 (a)                 473,500
Other                                               255,934(b)                       0
Supplies                                                  0                          0
Travel                                               13;348(c)                       0
Equipment                                                  0                         0
Cash Match                                       11,394,824(d)                       0
In-Kind                                              99,738(d)                       0
Indirect Cost                                       386,133(e)                       0
Total                $20 543 069   $19 133 115 $ 12 623 477                   $473 500     $6 509 638

Federal Funds Disbursed                                   $5,038,055
Costs Incurred                     $19,133,115
Less Questioned Costs               12,623,477
Costs Accepted                       6,509,638
Federal Cost Sharing Ratio             33.33%
Federal Funds Earned                                       2.169,662

Refund Due the Government                                 $2..82.t323

Notes:
    (a) We are questioning $512,998 in contractual costs (see page 6). However, $39,498 was
        claimed incorrectly under the other cost category. (See note (b) on page 31.)




                                               30 

U. S. Department ofCommerce                                                    ReportATL-18568 

Office ofInspector General                                                          March2009 




                                                                                   AppendixC

    (b) We are questioning $255,934 in claimed other direct costs as described below:

        Unallowable and Umeasonable Costs 

        Unreasonable Training Materials (see page 13) 

        Unreasonable T -Shirt Purchases (see page 13) 

        Unallowable Bad Debts (see page 13) 

        Unreasonable Rental Space (see page 14} 

        Lobbying Costs 

        ASMC Costs (see page 16) 

                                                                                        $­
        MAF Costs (see page 17) 

        Public Relations Campaign with ASMC (see page 17) 


    Incorrect Posting of Contractual Costs (see note (a) page 30.)                      $ 39.498 


    Total Questioned Other Direct Costs                                                 $255 934 


    (c) We are questioning $13,348 in travel costs as described below:

        Unreasonable travel (see page 19) 

        Lobbying travel (see page 18) 

        Total Questioned Travel Costs                                                   $ 13 348 


    (d) We are questioning $11 ,394,824 and $99,738 under subrecipients claimed costs
        (see page 2 and page 15).

    (e) We are questioning $386,133 in indirect costs (see page 20).




                                               31 

U. S. Department ofCommerce                                                    ReportATL-18568 

Office ofInspector General                                                          March2009 




bee:   Judith J. Gordon, assistant inspector general for audit and evaluation
       Brett M. Baker, assistant inspector general for audit
       Allison Lerner, counsel to the Inspector General
       David A Sheppard, Seattle regional inspector general
       John Bunting, Denver regional inspector general
       Ron Lieberman, director, Business & Science Division, Office of Audits
       Keith Teamer, special agent-in-charge, Office ofInvestigations Atlanta Field Office
       Greg Sebben, special agent in-charge, Office of Investigations Washington Field Office
       Annie Holmes, management analyst
       Jackie Day, auditor
       IGOffice
       Editor
       Master File
       McKevitt
       Dawsey
       Goss




                                              32 

                                                                                              APPENDIXD 





                                                                 K&l Gates llP
K&L IGATES 	                                                     1601 KStreet, NW
                                                                 Wasllngton D.C. 20006-1600


                                                                 T202.778.9000       www.klgates.c.om

   September 26, 2008 	                                          William A. Shook
                                                                 ~61-­
                                                                 ~lgates.com



   Kathleen M. McKevitt 

   Regional Inspector General for Audits 

   United States Department of Commerce 

   Office of Inspector General 

   Atlanta Regional Office of Audits 

   401 West Peachtree Street, Suite 2742 

   Atlanta, Georgia 30308 


   Dear Ms. McKevit: .

   As counsel to Florida MEP; please find enclosed the coinments on the Draft Audit Report
   concerning Award No. 70NANB3li2002.

   As you will note, we disagree with the findings and reco~endations of the Draft Audit
   Report and have provided the relevant documentation. We are available to meet with you to
   discuss the issues r~and ow response. Should you have any questions, p lease contact me
   directly at 202 661 ­

   Very truly yours,

   K&LGATESLLP

   By s/ William A. Shook 

     William A. Shook · 



   cc: 	·    Judith J. Gordon 

             Assistant Inspector General 

              for Audit.and Evaluation 

             United States Department of Commerce 

            ·Office of Inspector General 

             1401 Constitution Avenue, NW, Room 7886B 

             Washillgton, DC 20230 

             w/o Attachments 


                                                                      RECF.lVED
                                                                            SEP     ~· ~      2008
                                                                      BY:



                                          32 

                                                            APPENDIXD 




     September 26, 2008
     Page2

           Joyce Brigham
           Grants Officer
           Grants and Agreements Management Division
           National Institute of Standards and Technology
           United States Department of Commerce
           100 Bureau Drive, Stop 1650
           Building 411, Room A-143
           Gaithersburg, Maryland 20899-1650
           w/o Attachments




(





                                          33 

                                                                                                           APPENDIXD 


,•·




                    Florida MEP Response to Draft Audit Report No. ATL-18568-8-0001.

          I.    INTRODUCTION

      This Draft Audit Response responds to the proposed findings and recommendations identified in
      Draft Audit Report No. ATL-18568-8-001 of Florida MEP's (also sometimes referred to as the
      "Center") Cooperative Agreement Award No. 70NANB3H2002 for the period July 1, 2005
      through March 31, 2007 ("Agreement"). 1 This response addresses and takes exception to the
      issues raised in the Draft Audit Report. Attached to this Draft Audit Response are the documents
      that support Florida MEP's disagreement with the draft findings and recommendations­
      documents that were available to the auditors during the 39 days of on-site review for Florida
      MEP's $5,038,055 Agreement. We note that the Draft Audit Report does not address or mention
      the many accomplishments of Florida MEP in providing high quality services to the small and
      medium size manufacturers it serves.

      II.      SUMMARY

      The most glaring omission in the Draft Audit Report is the failure to acknowledge or apply the 

      statutory authorization for the Manufacturing Extension Partnership ("MEP") program that is 

      applicable to Florida MEP's Agreement. In partictilar.15 U.S.C. 278k(c) states in relevant part: 


               (3)(A) Any nonprofit institution, or group thereof, or consortia of nonprofit institutions,
               including entities existing on August 23, 1988, may submit to the Secretary an
               application for financial support under this subsection, in accordance with the procedures
               established by the Secretary and published in the Federal Register under paragraph (2).

               (B)In order to receive assistance under this section, an applicant for fmancial assistance
               under subparagraph (A) shall provide adequate assurances that non-federal assets
               obtained from the applicant and the applicant's partnering organizations will be used as a
               funding source to meet not less than 50 percent of the costs incurred for the first three
               years and an increasing share for each ofthe last three years. For purposes of the
               preceding sentence; the costs incurred means the costs incurred in connection with the
               activities undertaken to improve the management, productivity, and technological
               performance of small- and medium-sized manufacturing companies.

               (C) In meeting the 50 percent requirement, it is anticipated that a Center will enter into
               agreements with other entities such as private industry, universities, and State
               governments to accomplish programmatic objectives and access new and existing
               resources that will further the impact of the Federal investment made on behalfof small­
               and medium-sized manufacturing companies. All non-Federal costs, contributed by such
               entities and determined by a Center as programmatically reasonable and allocable under
               MEP program procedures are includable as a portion ofthe Center's contribution.


      1
       We note that, given the magnitude ofthe findings and the fact that we are unable to determine the source of
      calculations in the Draft Audit Report, we requested an extension oftime to submit these comments. That request
      was denied.


                                                                                                                        I




                                                          34 

                                                                                           APPENDIXD 





     The failure ofthe Draft Audit Report to apply this statutory authorization has a direct impact on
     the Draft Audit Report's largest questioned costs with regard to the contribution of Florida
     MEP's partners. We request that the final audit apply the MEP statute as enacted by Congress.

     In addition to the failure of the Draft Audit Report to apply the statutory authorization for the
     Florida MEP program, the Draft Audit Report incorrectly concludes that the Florida MEP
     partners did not have the required financial documentation to support the assistance provided in
     support of Florida MEP's program. In fact, as detailed below, each ofthe partners maintained
     and made available documents that allows a reasonable finding that costs expended were: (1)
     reasonable; (2) allocable to Florida MEP's mission of assisting small and medium sized
     manufacturers in Florida; (3) and allowable pursuant to statutory and regulatory authority,
     federal cost principles, National Institute on Standards and Technology ("NIST") guidelines, and
     the terms and conditions ofFlorida MEP's Agreement.
     With regard to the findings on Excess Program Income, the Draft Audit Report fails to apply the
     NIST MEP position on excess program income that has been communicated to Florida MEP and
     the other MEP Centers since 200 1-a position that is consistent with regulatory authority, federal
     cost principles, and similar treatment in other federal programs.

   With regard to each ofthe other findings and recomniendations, the Draft Audit-Report
  .incorrectly states that Florida MEP did not maintain adequate documentation with· regard to each
  of the areas question and, where the Draft Audit Report cites to available documents, the
  documents are simply misinterpreted by the Draft Audit Report. A comprehensive review ofthe
  available documentation supports a reasonable conclusion that Florida MEP expended all of its
  federally-awarded money as well as that of its partners in a manner that met all statutory and
  regulatory requirements, applicable NIST guidelines, and the terms and conditions ofthe
··Agreement,


 III.       OVERVIEW OF THE MEP PROGRAM

 Many of the Draft Audit Report's comments appear to be based on a fundamental
 misinterpretation of how the MEP program operates pursuant to the program's statutory
 authorization. By way of example, the Draft Audit Report simply ignores the fact that the
 authorizing MEP program statute assigns to Florida MEP the responsibility of establishing that
 all non-federal costs are "programmatically reasonable and allocable under MEP program
 procedures .. .-." 15 U.S.C. § 278k(c)(3)(C).

  The overarching goal of the MEP program, as embodied in the authorizing statute, is to increase
  the global competitiveness ofUnited States manufacturing by enhancing productivity and
  technological performance. 2 Congress established that MEP Centers would accomplish this goal
  by: (1) the transfer of manufacturing technology and techniques from NIST to Centers to
. manufacturing companies; (2) participation of individuals from industry, universities, State
  governments, other Federal agencies and NIST in cooperative technology transfer activities; (3)
  efforts to make new manufacturing technology and processes accessible and usable by small and
  medium-sized U.S. companies; (4) active dissemination of scientific, engineering, technical, and
 2
     15 U.S.C. § 278k(a).


                                                                                                     2



                                                 35 

                                                                                               APPENDIXD 





      management information to industrial firms; and (5) utilization of expertise and capability that
      exists in Federal laboratories other than NIST. 3 .

      Specific activities conducted by the Centers may include: (1) establishment of automated
      manufacturing systems and other advanced production technologies, based on research by the
      Institute, for the purpose of demonstrations and technology transfer; (2) the active transfer and
      dissemination of research findings and Center expertise to a wide range of companies and
      enterprises, particularly small- and medium-sized manufacturers; and (3) loans, on a selective,
      short-term basis, of items of advanced manufacturing equipment to small manufacturing firm~
      with less than 100 employees.4

      MEP Centers are instructed by statute to achieve these objectives by forming partnerships with
      organizations such as private industry, universities, and State governments. The goal ofthese
      partnerships is three-fold: to accomplish programmatic objectives, to furth~r the impact of the
      Federal investment, and to assist recipients in meeting their cost-share reqUirements. 5 The
      pannering organizations take the knowledge shared by the MEP Center an!i;.through their own
      activities, assist and provide services to the same small and medium sized manufacturing firms
      served by Florida MEP thereby furthering the impact of the Federal investment. without the
      expenditure of additional dollars.                   ·

   : Partnerships, consistent with statutory mandates, add direct value to Florida MEP by reducing 

  :. the duplication of activities and by leveraging the partner's activities to increaSe MEP mission 

   · effectiveness, penetration, and output. Partners use their own reputation and marketing and 

       referr~ activities to expand the MEP efforts, resulting in increased numbers Of small and
 ··.: medium sized manufacturers receiving needed assistance and efficiencies in project execution.
     · Partners also increase the Florida MEP Center's value and prevalence within the community by
. . -integrating MEP services into its OWn services to enhance achievement and performance.

  Activities performed by partners are mutually beneficial to the partner, its members, the MEP
  Center's clients, and the MEP Center. The goal ofNIST MEP, as embodied in its programmatic
  objectives, is not to bring other resources back into the Center (the typical federal paradigm of
  cost-share), but instead the goal is to push the technology, programs, and expertise as far oUt into
  the community as possible. The direct benefit the Center receives from its partnerships is the
  ability of another entity to provide the services and perform the education and outreach functions
  that would otherwise fall to the Center, allowing the Center to focus on offering additional
  services, educatio~ and outreach to SMEs.

  As noted above, Congress enacted a legislative amendment to the MEP authorizing statute to
  clarify how the MEP Centers' cost contributions are to be determined. Legislative clarification
  became necessary after prior audits of MEP Centers in the 2003 timeframe resulted in proposed
  findings and recommendations that were ultimately found to frustrate the mission, structure, and
  purpose ofthe MEP program as conceived by Congress.


  3
    15 u.s.c. § 278k(b). 

  4
    15 U.S.C. § 278k(c). 

  5 America Competes Act, Pub.L. No. 110-69, 121 Stat. 587 (2007). 



                                                                                                          3



                                                      36 

                                                                                                        APPENDIXD 





     The provisions in the legislative clarification that replace the prior language of 15 U.S.C §
     278k(c)(3) clarify the nature and classification of non-Federal costs contributed by partnering
     organizations. The legislation further states that:

            In meeting the 50 percent requirement, it is anticipated that a Center will enter
            into agreements with other entities such as private industry, universities, and State
            governments to accomplish programmatic objectives and access new and existing
            resources that will further the impact on the Federal investment ....All non­
            federal costs, contributed by such entities and determined by a Center as
            programmatically reasonable and allocable are includable as a portion of the
            Center's contribution.

     This clarification of the MEP authorizing statute clearly and unambiguously states that all non­
     federal costs contributed by partnering entities are to be counted as a portion ofthe Center's
     required cost contribution. Second, it defines "costs incurred" as "costs incurred in ·connection
     with the activities undertaken to improve the management, productivity, and technological
     performance of small and medium sized manufacturing companies." America Competes Act,
     Pub. L. 110-69, § 3003(a)(3)(C). Third, the statute clearly places the authority for .determining
     which costs are programmatically allocable and reasonable on the Center. Fourth, the
     amendment encourages Centers to utilize the partners' existing resources in accomplishing the.
     MEP mission. Without these partnerships, the Centers would not meet their cost share
·. · requirements. The statute. does not require that each partnership involve the receipt of federal
     dollars by the Florida MEP partners, nor does the statute require the use of. a -particular type of
     contract or relationship with the partner. The statute contemplates the use of "agreements" the
     type of which are not contemplated to be relevant to the Center's determination of allowable and
    reasonable costs.

 The legislative history is clear that contributions by industry, universities, and state governments,
 which frequently act as partners, (i.e. the partners ofFlorida MEP) "may be included as a portion
 of the Center's 50 percent or greater funding obligation if it is determined by the Center to be
 programmatically reasonable and allocable." H. Rept. 110-289 at 16 (emphasis added).

 IV.        QUESTIONED PARTNER COST SHARE

 The Draft Audit Report questions $11,394,824 in claimed project costs for Florida's eight 

 partners. 6 The Draft Audit Report recommends that these costs be disallowed because the 

 auditors stated that the partners were required to meet the Financial Management Standards 

 applicable to recipients, set forth in 15 C.F.R. § 14.21, and that none of the eight partners met 

 these requirements. It is on this ground alone that the Draft Audit Report questions all costs 

 claimed by Florida MEP for the expenditures of its eight partners that further.the statutory 

 mission of the MEP program consistent with the statutory authorization. 



 6
  The eight partners examined are: University of Central Florida, Economic Development Commission of Florida's
 Space Coast, First Coast Manufacturing Association, South Florida Manufacturing Association, Manufacturing
 Association of Central Florida, Bay Area Manufacturers Association, Florida Sterling Council, and the University of
 North Florida.


                                                                                                                  4




                                                       37 

                                                                                                        APPENDIXD 





    As noted above, the Draft Audit Report fails to acknowledge that the authority and responsibility
    to determine whether a particular cost is "programmatically reasonable and allocable" and
    therefore "includable as a portion ofthe Center's contribution" has been granted by Congress to
    Florida MEP. As evidenced by the documents reviewed by the auditors, Florida MEP
    reasonably made this determination for each of its partners based on the information reviewed by
    Florida MEP officials.
 As noted in the Overview section, the authorizing statute requires MEP Centers to form a
 network of partnering organizations to assist them in reaching small and medium sized
 manufacturers, thereby furthering the impact ofthe Federal investment. The statutory emphasis
 of the program is on forming strategic partnerships to use existing resources and avoid
 duplication of services. 7 Partnering organizations of a MEP Center can be entities in private
 industry; universities, and State governments. 8 The Centers' partnerships are integrated with
 existing state economic development, community college, and trade or industry association
 programs. This statutory partnering model is Unique in the Federal government.to the MEP
 program; it couples the partners' work withthat of the MEP Centers so thB;t the provider of
 services to manufacturers is indistinguishable between the partner and the Center.. The Centers'
 partners have the same overall mission objectives and share common values, approaches, and
 targeted market segments.

 The workofthe partners is integrated with the MEP Centers to increase the efficiency and·
  success ofthe MEP program. MEP partners work with the Center in reaching additional               .
· manufacturers, providing additional services, and transferring technology to SMEs to fulfill the
  core mission ofthe MEP Centers stated in 15 U.S.C. § 278k. In this way the Center uses the
· existing resources of each partner to further th~ impact of the Federal· investment by reaching
  manufacturers it would not, on its own, have the ability to reach and to provide additional
  services the Center could not otherwise offer. 9 Using a network of partners, the MEP Center can
  concentrate its resources on serving clients and on technology transfer. Without such a network,
  Federal resources would be diverted from providing direct services to SME's to expenditures for
  marketing and outreach to small and medium sized manufacturers. In this manner the activities
  of the partners are essential to the efficiency and effectiveness of the MEP Center and its ability
  to accomplish the programmatic objectives set forth in the statute and regulation.· :See 15 U.S.C.
  § 278k and 15 C.P.R.§ 290.3.

The MEP Center and the partner share the same mission -to provide services to SMEs 

throughout the State of Florida that allow SMEs to maintain or to improve their competitiveness 

in an increasingly global market. Such services include education, outreach, technology, and 

other support. The activities that the partners perform on behalfofthe MEP Center are 

allowable - they are operating expenditures that would be expended by the Center itself if the 


7
  America Competes Act, P.L. I 10-69, Sec. 3003(a)(3)(C). 

8
  Id. 

9
  The program regulation, 15 C.F.R. Part 290, directs Centers to leverage their resources by concentrating on
approaches that are broadly applicable to a range of organizations and regions. 15 C.F.R. § 290.3(e). The regulation
defines leverage as "the principle of developing less resource-intensive methods of delivering technologies (as when
a Center staff person has the same impact on ten firms as was formerly obtained with the resources used for one, or
when a project once done by the Center can be carried out for dozens of companies by the private sector or a state or
local organization)." Id


                                                                                                                   5
                                                                                                        APPENDIXD 





 partnership did not exist. The services provided by the partners in partnership with the MEP
 Center, and the costs incurred in providing those services represent a direct financial benefit to
 the MEP Center-consistent with statutory authorization. The costs incurred by the partners are
 costs that do not have to be incurred by the MEP Center, allowing the Center to then use the
 funds it retains on providing services to SMEs.

 The costs incurred by the partner and determined by Florida MEP to be programmatically
 reasonable and allocable need to relate to activities identified in the Scope of Work of the
 agreement executed between the partner and Florida MEP and be related to Florida MEP's
 Agreement with NIST. The activities identified in the Scope of Work are used to create a budget
 that is also incorporated into the agreement. On a regular basis the partner. submits its fmancial
 support for the relevant activities to Florida MEP, which then reviews the documentation and
 removes any items of cost that are unallowable under federal cost principles. Florida MEP then
 creates a report matching the line items in the budget, and compares the expenditures to the
 budget and the scope of work to verify that costs are reasonable, allocable, and allowable. 10
  The Draft Audit Report recommends the disallowance of $11,394,824 on the grounds that
  Florida MEP "was unable to disclose accurate, current, and complete fmancial results for the
  eight organizations - a requirement for financial management systems that track and report on
  federal funds." Draft Audit Report at 2. The Draft Audit Report asserts that these partner costs
  are somehow unallowable because they were not kept in accordance with 15 C.F:R. § 14.21, .
  made applicable to the partners through the flow-down provision of 15 C.F.R. § 14.5 and
··applicable to Florida MEP through incorporation by reference into the Agreement.

 The Draft Audit Report further asserts that the MEP Operating Plan Guidelines dated Match '
 2005 "require all MEP subawards to include the applicable administrative requirements and all
 general and special award conditions imposed on the recipient." The Draft Audit Report also
 questions the cost-share claimed by Florida MEP because the eight partners did not es.tablish
·separate cost centers for those costs incurred under the MEP subawards-.-·although the Draft
 Audit Report does not cite to authority for this assertion.

The Draft Audit Report references a "special award condition" that states that one-half ofthe
recipient's costs share must be in cash. We have reviewed all award documents issued to Florida
MEP during the audited period and did not find any such special award condition included by
NIST. Copies of the awards maintained by Florida MEP are provided as attachments which
clearly show there is no such condition. NIST cannot now impose a special award condition
retroactively.

In fact, as stated below, each Florida MEP partner maintained the documentation necessary to
demonstrate that non-federal costs were incurred in furtherance of the statutory objectives ofthe
MEP program thereby allowing Florida MEP to properly and reasonably determine that the costs
were "programmatically reasonable and allocable" and were therefore "includable as a portion of
the Center's contribution" and in accordance with the cost principles, therefore allowable.


10
   The Center has the authority to determine which costs are reasonable and allocable under the cost principles.
America Competes Act, P.L. 110-69. Sec. 3003.


                                                                                                                   6



                                                  . 39 

                                                                                           APPENDIXD 





            A.      Financial Management Systems

  The Florida MEP Operating Plan which was reviewed and approved by authorized NIST
  officials including the NIST Grants Officer, the NIST Program Officer, and legal counsel, clearly
  outlines the collaborative activities of Florida MEP and each partner, describing the specific
  costs that each partner will incur in furtherance of the MEP mission. 11 Prior approval from the
  authorized Grants Officer, which occurr~d in this instance, is additional support for the only
' reasonable conclusion that the cost share claimed by Florida MEP is consistent with statutory
  and regulatory requirements. OMB Circular A-122, codified at 2 CFR Part 230, defines ''prior
  approval" as:

            [S]ecuring the awarding agency's permission in advance to incur cost for those
            items that are designated as requiring prior approval by this part and its
            Appendices. Generally this permission will be in writing. Where an item of cost
            requiring approval is specified in the budget of an award, approval ofthe budget
            constitutes approval of that cost.

 2 CPR.§ 230.25. It is the very cost items included in the budget submitted by ·Florlda MEP for
 each partner, reviewed and specifically approved by the authorized officials at NIST that are now
·q1,1es#oned in the Draft Audit Report. The Draft Audit Report does not, however, recognize or
.address this prior approval notwithstanding the fact that it was brought to the auditors' attention
 during the on-sight review.

  The Draft Audit Report questioned the partner expenditures claimed as cost share for eight of 

  Florida MEP's partners on the grounds that "[t]he eight subrecipients did not have financial 

. management systems that met [15 C.F.R. § 14.21]." Draft Audit Report at 3. Specifically, the .
  Draft Audit Report alleges that the subrecipients did not maintain:

       • 	 Accurate, current, and complete disclosure ofthe fmancial results of each federally~
           sponsored project or program (Section 14.21(b)(l));

       • 	 Comparison of outlays with budget amounts for each award (Section 14.21 (b)(4)); and

       • 	 Written procedures for determining the reasonableness, allocability, and allowability of ·
           costs in accordance with applicable cost principles and the terms and conditions ofthe
           award (Section 14.21(b)(6)).

!d.

           B.      Accurate Disclosure of Actual Costs Incurred

As noted above, authorized NIST officials reviewed and approved each of the agreements
executed between Florida MEP and each partner. Each of those agreements includes a detailed

11
     Florida MEP Operating Plan


                                                                                                    7




                                                 40 

                                                                                               APPENDIXD 





  Scope of Work (Schedule A) and a detailed description of Financial and Programmatic
  Monitoring (Schedule B). 10 Schedule B requires each partner to submit to Florida MEP the
  following documentation:

           (1) Financial documentation including validation of payroll costs associated with the
  activities and other in-kind services not otherwise recorded;

              (2) Selected portions of the general ledger as related to the activities described herein;
  and

              (3) Invoices, purchase orders, or related documentation verifying incurred costs.

    Using the documentation submitted by the partners, Florida MEP followed detailed procedures
   to ensure that the costs were reasonable, allocable, and allowable. Florida MEP also conducted
   periodic site visits to ensure that records were being kept pursuant to the agreement. Florida
   MEP verified the costs claimed by each partner by reviewing their accounting records and
   comparing the reported expenditures against the original proposed budget.. This procedure, to
   which the parties agreed to in writing, and the results of which were made available to the
   auditors, reasonably demonstrates that the non-federal dollars expended by the partner were
   expended to further the MEP statutory mission. !tis the parties to an agreement who are in the
 ··best position to know what they intended by the agreement. See National Urban League, Inc.,
 . United States Department of Health and Human Services Departmental Appeals Board, No. 294
   (April30, 1982) (DAB adopted Grantee's interpretation as reasonable, and gave it more weight
   than the Agency's interpretation since the Grantee was a party to the agreement.). During site
   visits, Florida MEP veri:Qes that the claimed costs were actually incurred, that the activities
   benefited the Florida MEP Center consistent with its Agreement with NIST, and are in
· ·furtherance ofthe MEP mission. /d.

             C.       Comparison of Actual Outlays with Budgeted Amounts

 As part of its partnering process, Florida MEP met with each partner to review its annual
 operating budget, identified the specific cost categories allocable to the activities under the
 agreement and incorporated iri the Florida MEP Operating Plan. The monthly and quarterly
 fmancial reports provided by the partner clearly show the actual expenditures against the budget
 by line item for those costs identified in the Florida MEP's approved Operating Plan. 11

             D.       Written Procedures for Determining Allowability

 Florida MEP made its determination of allowability using written procedures that apply
 applicable federal cost principles. Florida MEP worked closely with each partner, through the
 steps described above, to ensure that costs claimed by Florida MEP are reasonable, allocable,
 and allowable, and derived from non-federal sources. The Agreement, in Schedule B, clearly
 requires, consistent with 15 C.P.R. Part 14, that the partner provide documentation sufficient for
 Florida MEP to determine the allowability of costs pursuant to its written procedures and the

 10
      Exhibits 8, 12, 17, 22, 25, 28 and 32 

 11
      Florida MEP Operating Plan 



                                                                                                           8



                                                   41 

                                                                                           APPENDIXD 





 applicable cost principles. This procedure complies with the authorizing statute, which prevails
 over the general administrative provisions in the event of a conflict. See United States v. Coates,
 526 F. Supp. 248 (E.D.Cal Nov. 19, 1981), a.ffd in part, reversed in part, 692 F.2d 629 (9th Cir.
 Nov. 19, 1982).

 Florida MEP determined that the expenditures of individual partners on behalf of SMEs were
 "programmatically reasonable and allocable" and were therefore "includable as a portion ofthe
 Center's contribution." 12 A summary of the process used for each partner is described below.

                     1.      University of Central Florida

 The University of Central Florida, Office of Research and Commercialization ("UCF")
 administers and participates in the State of Florida High Tech Corridor Council ("FHTCC"),
 established by the state legislature in 1996 to attract, retain, and grow high tech industry and the
 workforce to support it within the 23 county, Interstate 4 (I-4), Florida High Tech Corridor.
 Florida MEP and UCF work together to promote the interests of high tech manufacturers by
 facilitating technology transfer and commercialization, providing guidance on process
 improvement and quality standards, conducting workforce training programs, and offering grant
 assistance.

  Florida MEP's Technology Transfer Project Manager ("MEP PM") works directly with UCF and
  the FHTCC to identify opportunities and needs. The MEP PM matches industry participants
  with the University and vice versa. The partnership furthers the mission of Florida MEP by
  assisting manufacturers with their technology and commercialization needs. All costs incurred
  by UCF and claimed by Florida MEP ate directly related to either the costs of administering the
  FHTCC or the costs directly related to individual research projects between the University and
 advanced/high tech manufacturing companies that are undertaken to facilitate technology
·transfer and improve the competitiveness ofFlorida manufacturers.

 Florida MEP's Operating Plan, as approved by the authorized NIST Grants Officer, Program 

 Officer, and legal counsel states: 


           The cost share provided by UCF to Florida MEP is a result of the collaborative
           efforts by both parties to provide manufacturers access to the latest technology
           and manufacturing theories and ideas, assistance with providing grants to
           manufacturers for technology transfer and commercialization and promote lean
           manufacturing theories and services for manufacturers along Florida's High Tech
           Corridor. Florida MEP utilizes as cost share UCF's administrative expenses
           which include but are not limited to: salaries for staff(including fringe); office
           expenses (rent, telephone, stationary, printing, office supplies); meeting expenses
           and travel expenses.

In addition, the Budget Narrative further de:fmes the expenses incurred by UCF in furtherance of
the MEP project. Salaries are defined to include the portion of professor and staff salaries for
time spent working with client companies on the FHTCC Grant. Supplies and Office expenses
12
     America Competes Act,P.L. 110-69, Sec. 3003, 121 Stat. 587 (2007).


                                                                                                    9



                                                      42 

                                                                                     APPENDIXD 





 and Lab Project Fees include costs of providing services to client companies, including supplies,
 lab fees and material costs. Marketing costs are associated with marketing the FHTCC Grant
 Program. 13

                   Supporting Documentation

UCF provided Florida MEP with budget position reports and detailed budget and expenditure
reports that were specific to each project paid for with FHTCC Grant funds as well as the
financial reports for administering the FHTCC Program as is stated in the approved Operating
Plan and as outlined in Schedule B ofthe agreement between the parties. 14 Florida MEP
verified that any costs that are used to match other federal awards are excluded from the reports
sent to Florida MEP. Florida MEP conducted periodic site visits with UCF to review source
documentation and discuss distribution ofFHTCC Grant Funds. In addition to reviewing UCF's
policies Florida MEP also tested source documents to ensure that the costs contributed were
specific to the FHTCC Program and were reasonable, allocable, and allowable under the cost
principles. 15 UCF provided Florida MEP with a copy of the State of Florida Auditor General
Financial Audit Report.. Furthermore, the Associate Vice President for Research certified UCF's
contribution of expenditures related to its MEP activities and that all costs contributed were not
paid for with federal funds and were not included as contributions to any other federally assisted
project or program. 16

  Florida MEP morutored UCF by·reviewing its financial records, supporting documentation and
. provided guidance for. complying with applicable federal guidelines. UCF followed generally
  accepted accounting principles ("GAAP") and underwent an annual State of Florida audit
  conducted by the State Auditor General. Consistent with this process, Florida MEP detennined
  that the expenditureS·ofUCF on behalf of manufacturers were "programmatically reasonable and
  allocable" and were therefore "includable as a portion of the Center's contribution."

                  2.       Economic Development Commission of Florida's Space Coast

The Economic Development Commission of Florida's Space Coast ("EDC") is a private, not-for­
profit organization committed to the economic stability and growth of Brevard County, Florida.
Florida MEP and EDC collaborated on offering services specifically designed to deliver
successful and cost effective products and services designed to improve the competitiveness of
Florida's manufacturers.

The Florida MEP and the EDC have collaborated on and co-sponsored over 25 workshops and
seminars for manufacturers in Brevard County since 2005. These workshops included such
topics as principles of lean manufacturing, value stream mapping, supply chain development and
doing business With the government. In addition, Florida MEP participated on the EDC's
Industry Advisory Committee, the goal of which is to enhance the EDC's support ofthe National
Association of Manufacturers' basic objectives: to advance manufacturing, including reducing

13
   Florida MEP Operating Plan 

14
   UCF Sample Financial Reports Ex. I 0 

15
   UCF Site Visit Notes Ex. 9 

16
   UCF Letter CertifYing Expenditures Ex. I I 



                                                                                               10



                                                  43 

                                                                                        APPENDIXD 





 domestic production costs, to level the international playing field, to promote innovation, and to
 ensure an adequate supply of skilled workers.

 As described in the Florida MEP Operating Plan that was approved by the authorized NIST
 Grants Officer, Program Officer, and legal counsel, Florida MEP utilizes as cost share the EDC's
 daily operating expenses directly related to the MEP project, including, but not limited to,
 salaries (including fringe benefits), travel, marketing research materials, meetings, office
 supplies, postage and printing, telephone and rent. These expenses are directly related to EDC's
 ability to provide the programs that enhance business opportunities, education, and economic
 development
         .	    for manufacturers in Brevard County. 17                              ..


                    Supporting Documentation

 The EDC provides Florida MEP with detailed financial statements including Profit and Loss 

 statements (budget vs. actual), detailed general ledger accounts, and transaction detail by 

 account, along with source documentation supporting the costs claimed. 18 . The EDC follows 

 generally accepted accounting procedures and under goes an annual independent audit and 

 provides the Florida MEP with a copy ofthat independent audit report. 


  Florida MEP periodically conducted site visits at EDC to discuss how the EDC's expenditures on
  behalf of manufacturers were used as cost share for the Florida MEP Agreement. Florida MEP
  verified that the funds are derived.from non-federal sources and were not used as cost share for
  any other federal program. 19 The EDC's President certified their contribution of expenditures
  related to MEP activities and that all costs contributed were not paid with federal :D.mds and were
· not included as contributions to any other federally assisted project or program. 20

  Florida MEP monitors the EDC and reviews its fmancia1 records, supporting documentation and
  provides guidance for complying with applicable federal guidelines. Consistent with this
· process, Florida MEP determined that the expenditures of the EDC on behalf of manufacturers
  were "programmatically reasonable and allocable" and were therefore "includable as a portion of
  the Center's contribution."21                                                           ·


                    3.      First Coast Manufacturers Association

.	T he First Coast Manufacturers Association ("FCMA") is a regional trade association
 representing manufacturers in the Northeast Florida region. Its members employ more than 50%
 of the 45,000 manufacturing workers in the region and represent all facets ofthe manufacturing
 community from small machine shops to large bottlers. Florida MEP and FCMA collaborate to
 provide services specifically designed to help improve the competitiveness of manufacturers in
 Florida.

17
     Florida MEP Operating Plan at 41.
18
19
   EDC Site Visit Notes Ex. 14
20
   EDC Letter Certifying Expenditures Ex. 16
21
   America Competes Act, P.L. 110-69, Sec. 3003, 121 Stat. 587 (2007).


                                                                                                 11



                                                   44 

                                                                                        APPENDIXD 





 FCMA's Lean Consortium assists manufacturers with implementing lean process improvement
 methodologies by training a Lean Champion within each organization. A Lean Champion is a
 designated employee who works to educate and train other employees ofa particular
 manufacturer on lean principles.

 As outlined in the Operating Plan, reviewed and approved by authorized NIST officials, FCMA
 contributed costs to Florida MEP relating to sponsoring and hosting workshops, seminars, and
 trade shows, among other events, and contributed a share of its daily operating expenses such as
 its managing agent fee, office expenses (rent, telephone, stationary, printing, postage, office
 supplies), and meeting and travel expenses, all of which are directly related to the furtherance of
 the MEP project.

                 Supporting Documentation

 FCMA provides Florida MEP with a quarterly general ledger detailing specific expenditures
 under each expense accoWlt number. In addition, FCMA provides a budget comparison report,
 an income statement, a balance sheet, and supporting invoices and documentation. 22

  Florida MEP monitors FCMA and reviews its financial records, supporting documentation, and
  provides guidance for complying with applicable federal guidelines. FC:f\4A follow~d generally
. accepted accounting principles ("GAAP"). Periodically, Florida MEP conducted site visits at
  FCMA to review FCMA's policies and procedures and source documentation.. Consistent with
  this process, Florida MEP determined that the expenditures of FCMA on behalf of SMEs were
  "programmatically reasonable and allocable" and were therefore "includable as a portion ofthe
  Center's contribution"?3                                                 ' .     . .


Furthermore, FCMA certified its contribution of expenditures related to its MEP activities and
that all costs contributed were not paid with federal funds and were not included as contributions
to any other federally assisted project or program. 24                              ·       ·


                4.       South Florida Manufacturers Association

South Florida Manufacturers Association ("SFMA") is a not-for-profit trade association serving
the manufacturing community in South Florida. There ·are approximately 4,500 manufacturing
companies in Broward, Miami-Dade, and Palm Beach COWlties employing over 150,000 people.
Florida MEP and SFMA worked together to offer services specifically designed to promote the
growth and competitiveness of small and medium sized manufacturers in South Florida.

Florida MEP and SFMA co-hosted workshops and seminars that promoted the services available
to small and medium sized manufacturers from SFMA and from Florida MEP. Also conducted
were plant tours, the South Florida Manufacturing Day as well as the provision of training and
consulting to manufacturers on a wide variety of topics.

22
   See sample FCMA Financial Reports. Ex 19.
23
   Id
24
   FCMA Letter Certifying Expenditures Ex 2l


                                                                                                 12



                                               45 

                                                                                        APPENDIXD 





 As outlined in the Florida MEP Operating Plan and Budget, reviewed and approved by the
 authorized NIST Grants Officer, Program Officer, and legal counsel, SFMA contributed
 expenditures spent on behalf of the MEP project including salaries (inclusive of benefits) for
 SFMA's president and staff members, office expenses including rent, telephone, office supplies,
 printing costs, travel expense, marketing expenses including production of brochures, events,
 calendars and newsletters and event expenses, including speakers, venue costs, food, printing,
 equipment rental, photo and other expenses, all of which are directly related to the furtherance of
 the MEP project?                                                                       ·

                    Supporting Documents

 SFMA provided Florida MEP with a copy of its annual operating budget, quarterly statement of
 cash flow. reports, statements of activity reports and year-to-date budget report showing budgeted
 amounts to actual expenditures, invoices supporting costs claimed, the annual audit report and
 Income Tax Return Fonn 990. 26 SFMA follows generally accepted accounting procedures and
 tinder goes an annual independent audit.

 Periodically, Florida MEP conducted site visits with SFMA to review and discuss. collaborative
 activities, SFMA's policies and procedures and source documents supporting its expenditures·in ·
 furtherance ofthe MEP project and how Florida MEP used these expenditures to match its
 federal award. 27   ·


                    5.      Manufacturers Association of Central Florida

  The Manufacturers Association of Central Florida ("MACF") is a non-profit trade association
· representing the manufacturing community of Central Florida and is the catalyst through which
  manufacturing executives coordinate their efforts to establish and maintain a favorable business
  and economic climate for manufacturing in the Central Florida region.

 Florida MEP and MACF collaborated to offer services specifically designed to help 

 manufacturers with exposure to technological advancements, quality control, and process 

 improvement, with the goal of increasing the competitiveness of manufacturers in Central 

 Florida and throughout the state. Florida MEP and MACF worked to jointly promote and host 

 informational sessions and workshops on such topics as lean manufacturing, value stream 

 mapping, kaizen, lean six sigma, and others, conducted manufacturing plant tours, hosted 

 roundtables on topics of importance to manufacturers, and cooperated on other business 

 development events. 


As outlined in the Florida MEP Operating Plan and Budget, reviewed and approved by the 

authorized NIST Grants Officer, Program Officer, and legal counsel, MACF contributed costs 

incurred on behalf ofthe MEP project including the salaries (inclusive of benefits) of MACF' s 

director and staff members, rent and general office expenses, that are incurred directly in the 


25
     Florida MEP Operating Plan at 32. 

26
     Sample SFMA Financial Reports and supporting documentation Ex. 24 

21
     FCMA Site Visit Notes dated March I, 2006 Ex. 23 



                                                                                                13



                                                    46 

                                                                                      APPENDIXD




 furtherance of the MEP project, including telephone, office supplies, printing costs, marketing
 expenses including production of brochures, events, calendars and newsletters, and event
 expenses, including co-sponsored Lean events, plant tours, manufacturer's roundtables, and
 business development events for manufacturers. 28

                  Source Documents

 MACF provided Florida MEP with a copy of its annual operating budget, monthly income and
 expense reports and actual to budget financial reports as well as supporting source
 documentation as requested. 29                          .


Periodically, Florida MEP conducted site visits with MACF to review and discuss collaborative
activities, MACF's policies and procedures and source documents supporting its expenditures in
furtherance of the MEP project. Florida MEP also discussed how it used MACF's expenditures
to match the MEP's federal award. 30   ·                .                        ·       ·




                 6.       Bay Area Manufacturers Association

Bay Area Manufacturers Association ("BAMA") is a non-profit trade association representing
the manufacturing community ofTampaBay. BAMA's mission is to provide Tampa Bay's
manufacturing community with quality educational and training programs, events·with high take­
away-value, and forums for networking and information exchange.

Florida MEP and BAMA collaborated to offer services specifically designed to help
manufacturers with exposure to technological advancements, quality control, and process
improvement, with the goal of increasing the competitiveness of manufacturers in Tampa Bay
and throughout the state. Florida MEP and BAMA worked to jointly promote and host
informational sessions and workshops on such topics as lean manufacturing, value stream
mapping, kaizen, lean six sigma, and others, to conduct manufacturing plant tours, to host
roundtables on topics of importance to manufacturers, and other business development events for
BAMA members and guests.

As outlined in the Florida MEP Operating Plan and Budget, reviewed and approved by the
authorized NIST Grants Officer, Program Officer, and legal counsel, BAMA contributed costs
incurred on behalf of the MEP project including the salaries (inclusive of benefits) ofBAMA's
director and support staff, rent and general office expenses that are incurred directly in the
furtherance ofthe MEP project including telephone, office supplies, printing costs, marketing
expenses including production of brochures, events, calendars and newsletters, and event
expenses, including co-sponsored Lean events, plant tours, manufacturer's roundtables, and
business development events for manufacturers. 31                   ·                       ·




28
   Florida MEP Operating Plan at 29. 

29
   Sample MACF Financial Reports Ex. 27. 

30
   MACF Site Visit Notes dated November 28, 2005 Ex 26. 

31
   Florida MEP Operating Plan at 30. 



                                                                                               14




                                                 47 

                                                                                                APPENDIXD 





                  Source Documents

 BAMA provides a copy of its annual operating budget, monthly income and expense reports and
 actual to budget financial reports as well as supporting source documentation as requested. 32

Periodically, Florida MEP conducted site visits with BAMA to review and discuss collaborative
activities, BAMA's policies and procedures and source documents supporting its expenditures in
furtherance ofthe MEP project. Florida MEP also discussed how it uses BAMA's expenditures
to match the MEP' s federal award? 3


                  7.      University of North Florida

The University ofNorth Florida's ("UNF") Division of Continuing Education provides training
and professional services to help organizations respond to changing opportunities and increase
efficiency and effectiveness of core business processes. The University of North Florida teaches
that the key to remaining competitive in today's business environment is continuously improving
quality, productivity and customer satisfaction. The University of North Florida's Center for
Quality can equip an organization with the tools it needs to iniprove its competitive edge and
improve profitability by offering training in ISO 90012000 Certification, Six Sigma and Lean
methodologies.                                                                 ·

Florida MEP and UNF collaborative activities included joint client site visits and assessments
that pr~mcited core programs and services, co-sponsorship of workshops, seminars and events,
th~ c~llocation of a MEP Project Manafer at ~·s J?ivision of C?ntinuing ~ucation, and joint
trammg programs for manufacturers. 3 As outlmed m the Operating Plan reVIewed and
approved by the authorized NIST Grants Officer, Program Officer and legal counsel, UNF
contributed costs related to salartes and benefits for staff conducting training for and providing
services to manufacturers; administrative expenses including general office expenses and back
room support; and training costs and client site visit costs, all ofwhich are incurred directly in
the furtherance of the MEP project.

                 Source Documentation

UNF tracked those companies it serves by NAICS code and calculated the percentage of
expenses attributable to manufacturers based upon the client industry code, Quarterly, UNF
provided Florida MEP with the percentage of manufacturers (out oftotal clients) served, a
budget worksheet, the year-to-date actual to budget report, and a detailed activity report for ea:ch
training or conference and supporting source documents~ 35 UNF also provided Florida MEP
with a copy of its procurement policies and its annual State of Florida Auditor General Financial
Audit Report. 36                                                            .


32
   Sample BAMA Financial Reports Ex. 30 

33
   BAMA Site Visit Notes dated June 5, 2006. Ex. 29. 

34
   Florida MEP 2006 Operating Plan at 48. 

35
   Sample UNF Financial Reports Ex. 33. 

36
   UNF Procurement Policy and 2005 & 2006 State of Florida Auditor General Reports. Ex. 34. 



                                                                                                     15



                                                  48' 

                                                                                        APPENDIXD 





 Florida MEP monitored UNF by reviewing its financial records, supporting documentation and
 by providing guidance for complying with applicable federal guidelines. UNF follows generally
 accepted accounting principles and underwent an annual State of Florida audit conducted by the
 Auditor General. Consistent with this process, Florida MEP determined that the expenditures of
 UNF on behalf of manufacturers were "programmatically reasonable and allocable" and were
 therefore "includable as a portion of the Center's contribution."37             .


 V.          QUESTIONED PARTNER PROGRAM INCOME

 The Draft Audit Report expresses concern over program income earned by Florida MEP partners
 but not reported to NIST by Florida MEP. Florida MEP did not report program income earned
 by its partners due to the fact that it was used by the partners to fund MEP activities.

Program income is defined as "gross income earned by the recipient that is directly generated by
a supported activity or earned as a result of the award,"38 including fees for services performed,
use of rental or real property acquired under federally-funded projects, and ·sale of commodities
fabricated under an award. The partners generated program income consisting of workshop and
conference fees, subscriptions, special projects, and other non-federal revenue from their MEP­
supported activities. Any program ·income earned by the partners from their Florida MEP
supported activities was spent on Florida MEP activities. Each partner tracks this income.in its .
accounting system and reports it to Florida MEP throughqut the year in its financial reports,
delineating its revenue and expenses by activity.

The processes used to verify costs and track program income for Florida MEP's partners are set
out below. Ineluded is a table identifying the gross income earned by the partner that is directly
generated by the Florida MEP supported activity, the expenditures of the income ·and the net
program income for the period.                                  ·

            A.      University of Central Florida ("UCF")

The funds supporting the FHTCC Program are state funds that are administered through UCF are
appropriated to UCF for the FHTCC Program from the State of Florida. UCF does not generate
program income because none of the activities it conducts in furtherance of the MEP mission are
conducted using.federal funds. There can be no federal interest in program income ifthe income
is not produced using federal funds. See 15 C.P.R.§ 14.2(aa).

             B.     Economic Development Commission of Florida's Space Coast ("EDC")

The EDC generates program income from fees for admission to special events such as the EDC
Annual Meeting and the Industry Appreciation Banquet. EDC tracks the income earned from
these events in its accounting system and reports it to Florida MEP on the financial reports



31/d
38
     2 C.F.R. § 215.24.


                                                                                                16



                                             49 

                                                                                                                    APPENDIXD




                    submitted to Florida MEP. 39 Any excess program income earned by EDC from its MEP
                    supported activities is likewise spent on MEP activities.                         ·

                    Source ofRevenue                            Gross Program             Less ~xpenses
                                                                Income

                    Meetings/Functions,
                    Promotional Sponsorships and
                    Publications


                               C.       First Coast Manufacturers Association ("FCMA")

                    FCMA generates program income from special e:vents and workshops. FCMA tracks the income
                    earned from these events in its accounting system and reports it to Florida MEP on the financial
                    reports.40 Any excess program income earned by FCMA from its MEP supported activities is
                    likewise spent on MEP activities.           ·

                                                                                          Less Expenses    Net Program
                                                                                                           Income

/   .. -:      .   M~etings/Functions/Promotional
    .   ':~:   .   Sponsorships; Publications and
                                                                                                           .   ..

                               D.      South Florida Manufacturers'               Asso~iation   ("SFMA")

                   SFMA generates program income. from fees generated from special events and workshops.
                   SFMA tracks the income earned from these events in its accounting system and reports it to
                   Florida MEP on the financial reports.41 Any excess program income earned by SFMA from its
                   MEP supported activities is likewise spent on MEP activities.           ·




                   39
                        See sample fmancial report for EDC at Ex. 13.
                   40
                        See sample financial report for FCMA at Ex.. 19.
                   41
                        See sample financial report for SFMA at 24.


                                                                                                                         17




                                                                           50 

                                                                                           APPENDIXD 





              E.       Manufacturers' Association of Central Florida ("MACF")

      MACF generates program income from fees generated from special events and workshops.
      MACF tracks the income earned from these events in its accounting system and reports it to .
      Florida MEP on the financial report.s. 42 Any excess program income earned by MACF from its
      MEP supported activities is likewise spent on MEP activities.

      Source of                               Gross Program            Less Expenses
                                              Income




              F.       UniveMity of North Florida ("UNF")

        UNF generates program income from fees and tuition and reports these amounts and.the 

       .c orresponding expenditures on its quanerly auxiliary budget worksheet which Florida MEP 

     . monitors. 43 Any excess program income earned by UNF from its MEP supported ac(J.vities is
        likewise spent on MEP activities.                         .




.r   VI.     ·QUESTIONED CONSULTANT COSTS

              A.      TimeWis~     Contracts

     The Praft Audit Report questions ~in claimed costs because of the alleged ~pparent
     duplication ofservices with the Time Wise management contract when in fact the TimeWise
     contracts in question were not a duplication of efforts. Table 3 in the Draft Audit Response is
     misleading. as to how the actual contracts are written. Draft Audit Response at 6.     ·

     The TimeWise Management Services Agreement, as approved by the Florida MEP Board of
     Directors and approved by authorized NlST officials, is specific to providing services to Florida
     MEP under its Cooperative Agreement No. 70NANB3H2002 in the areas offinancial
     management, communications, and business planning and governmental relations.44 These
     tasks, in turn, are more specifically defined· to include twelve service areas. The four MEP MSI
     contracts relating to the Florida Supply Chain Initiative were executed, per the Florida MEP's
     Board of Directors directive, to assist Florida MEP with new program initiatives and were


     42
        See sample financial report for MACF at 27.
     41
        See UNF sample auxiliary budget and worksheet at 33.
     44
        Management Services Agreement dated July l, 2005 and January l , 2006. Ex. 35


                                                                                                       18



                                                     51 

                                                                                                  APPENDIXD 





 clearly outside of the services to be performed under the TimeWise Management Services
 Agreement.

 During 2004, the Florida MEP Board of Directors Strategic Planning Committee, in fulfilling its
authorized duties, identified initiating a supply chain improvement program in Florida, similar to
the successful program being implemented in New England, as one of Florida MEP's key
strategic thrusts. During the November 9, 2004, Board of Directors Meeting, 45 the Board of
Directors reviewed and approved the Florida MEP Strategic Plan FY 2005~2007. 46 As a result of
this strategic decision and to initiate the process of implementing a program in Florida similar to
the New England Supply Chain Initiative, at the annual Board of Director's meeting held on
February 24, 2005, the Board of Directors reviewed a video of the New England Center for
Supply Chain Integration; were presented with a scope of the activities needed to begin the
initiative; 47 discussed the process in further detail; and_ then voted to negotiate and execute the
necessary agreements with MEP MSI to assist in accomplishing the strategic plan.48

The goal of the Florida Defense Manufacturing Supply Chain Initiative was to jump start an
effort to increase the level ofparticipation of Florida's non~minority and minority small to
medium sized manufacturing enterprises (SMEs) in defense and commercial contracting
opportunities, either as qualified prime contractors or subcontractors. This was to be
accomplished by leveraging the infrastructure and initial successes of the Department of
Defense-supported New England Defense Manufacturing Supply Chain Initiative and related
Center for Supply Chain Integration.

The Defense Logistics Agency, an agency within the Department of Defense ("DoD"), had­
awarded a contract to Concurrent Technologies Corporation ("CTC") which subcontracted with ·
MEP Management Services to implement a six-state integrated manufacturing model in New.
England to assist DoD in accessing New England's underutilized manufacturing community by
increasing both the quantity and quality ofSME teaming arrangement opportunities and. by
providing a larger and more diverse cross-section of SMEs from which to draw from for the
purpose of forming effective teaming arrangements. This large and diverse cross~section of
SMEs is necessary to satisfy the range of DoD procurement requirements in the critical areas of ·
cost savings, high quality, sufficient quantity and on-time delivery, across the broad range of the
boD demand spectrum for products and services.

Furthermore, the Florida MEP 2005 Operating Plan49 which was approved by authorized.NIST
officials, identified the Center's first strategic effort in pursuing supply chain opportunities:
"establish SupplyPoint™ and a Florida center for supply chain integration with state and federal
funding and link registered Florida SMEs to the national demand opportunities." Id The second
related but separate strategic effort was to serve the minority manufacturing community:
"Florida MEP will develop ways to address the needs of both Hispanic-owned manufacturers
and members ofthe Spanish speaking workforce through a partnership with the US~Mexico

45
   Florida MEP Board of Directors Meeting Minutes, November 9, 2004 Ex. 36
46
   Florida MEP Strategic Plan FY: 2005-2007 at 3.
47
   Scope of Work for Supply Chain Initiative presented at Florida MEP Board Meeting. February 24,2005 Ex. 38
48
   Florida MEP Board of Directors Meeting Minutes, February 24, 2005 Ex. 38
49
   See Florida MEP 2005 Operating Plan at I 1.


                                                                                                               19



                                                 52 

                                                                                                APPENDIXD 





 Chamber of Commerce. 5° Examples of initiatives include pursuing Federal Department of Labor
 funding to establish a training program for future minority Computer Numerically Controlled
 operators and federal Department of Defense funding to establish a minority center for supply
 chain integration."

 Under the Supply Chain Initiative, Florida MEP assisted manufacturers in Florida with
 identifying and pursuing new business opportunities with DoD, Original Equipment
 Manufacturers, and first and second tier suppliers already within the defense supply chain.
 Through the use of SupplyPoint® software and the Florida Center for Supply Chain Integration,
 Florida MEP was able to assist manufacturers by capturing their capabilities and -matching those
 capabilities with new business opportunities thus allowing Florida's small and medium sized
 manufacturing enterprises to increase the level of participation in defense and commercial
 contracts either as qualified prime contractors or subcontractors.

The Draft Audit Report also asserts that the invoices did not contain the required supporting
documentation. The Draft Audit Report does not, however, address or acknowledge the fact that
the members of the Florida MEP Board of Directors were kept informed throughout the entire
initiative by means of regular telephone conferences, meetings and email updates-directly
related to the expenditures being made. Furthermore, during regularly scheduled Board of
Directors meetin~s MEP MSI management official~ made presenta~ions. ~p~atinf the Flo~ida
MEP Board of Duectors on the progress of the Flonda Supply Cham lmtiattve. 5 Each time a
member of the Board of Directors requested additional information, it was provided in a timely
manner.	52                                                                  .


The Draft Audit Report does not provide an accurate representation ofthe actual tasks,assigned
to MEP MSI for the Florida Supply Chain Initiative when compared to the tasks assigned to
TimeWise for management support services of the Florida MEP. As a result, the Draft Audit
Report incorrectly concludes, without actual documented support, that the tasks were duplicative.
The following is a comparison of the different tasks and efforts.

                 1.      Florida Supply Chain Initiative Contracts

                         a.       Contract -Pursue State and Federal Funds

MEP MSI will pursue state and federal grants and contracts to further the work initiated by this
Project in order to secure defense and commercial contracts for Florida SME suppliers.
Specifically MEP MSI will:

            • 	 Pursue opportunities through State Incumbent Worker grants
            • 	 Department of Labor grant to establish a CNC Operator training program in
                Florida for minorities
            • 	 Educate Florida Congressional Delegation on the initiative


50
   See Florida MEP 2005 Operating Plan at 7 & 10.
51
   Board of Director Meeting Minutes and Presentations from May 19, 2005 and November 8, 2005 Ex. 39
52
   Florida National Account Prospectus Memo Ex. 39


                                                                                                       20



                                                53 

                                                                                           APPENDIXD 





                • 	 Pursue Federal grant or contract to establish ·a Center for Supply Chain Integration
                    in Florida53                                                 .


 Outcome

 This contract was specific to finding sources of funding to help initiate and replicate the New
 England Manufacturing Supply Chain program in Florida. Florida MEP has been awarded a
 subcontract under a contract through the Defense Logistics Agency for $ - o begin October
 2007. Under that contract, Florida MEP assisted Florida manufacturers with identifying new
 business opportunities within DoD. Florida MEP worked with manufacturers to reduce the
'aniount of time necessary to. prepare and submit bids in response to RFPIRFQs which greatly
 enhanced their ability to secure government contracts. In August 2007, Florida MEP successfully
 opened began operation of the Center for Supply Chain Integration in Melbourne.

                            b.       · Contract .... National D~mand Sales Efforts

MEP MSI will link Florida SupplyPoint™ registered Florida.SMEs to the national sales efforts
to identify and pursue manufacturing demand contract opportunities · in the defense and
conun.ercia'l se.c tors. Specifically under this contract MEP MSI will:

               • 	 Identify Florida SMEs as available suppliers in national sales efforts to defense
                  · . prime contractors and 1st tier suppliers
               • 	 . Identify Florida SMEs as available suppliers to the small business specialists a,t
                      the DLA DefenSe Supply Centers
               • · 	 Identify Florida SMEs as available suppliers to the small disadvantage business
                      specialists at defense prime contractom and DoD Agencies
               • 	 Leverage teaming agreements between Florida SMEs and New England SMEs for
                      contract opportunities.54                                                    . ··


Outcome

MEP MSI worked with several large OEMs to identify suppliers i.l'l. Florida who would benefit
from the services of the Florida MEP and its new Defense Manufacturing Supply Chain
Initiative. Florida. MEP, as a result of this effort, has delivered services to several large
aerospace companies and its suppliers to: help improve their process and utilize the services of
the Center for Suppl)' Chain Integration.55'                                 .



                            c.       Contract - SupplyPoint®

MEP MSI will create and maintain a Florida MEP SupplyPoint™ web page and wizard protocol
specific for the Florida MEP supply chain initiative. Specifically MEP MSI will:

                      .          .                .
53
     See Vendor Agreement for Task 1, Schedule A Ex. 40
54
   See Vendor Agreement for Task 2, Schedule A Ex. 40
ss National Sales Update regarding Florida Supply Chain Initiative Ex. 39


                                                                                                    21




                                                      54 

                                                                                        APPENDIXD 





                         • 	 Create Florida MEP SupplyPoint™ web page
                         • 	 Publish quarterly Florida SupplyPoint™ e-Newsletter
                         • 	 Maintain Florida MEP SupplyPoint™ site56

 Outcome

 MEP MSI has customized SupplyPoint® and developed a wizard protocol for the Florida MEP.
 Florida MEP pays MEP MSI a monthly subscription fee to maintain the website, provide
 necessary maintenance ru:td updates, backup information on the website and provide disaster
 recovery, and host the website.

                             d.      Contract- Outreach to Manufacturers

 MEP MSI will conduct a statewide outreach effort to contact all Florida SMEs who are involved
 in machine shop related activities, educate them on the initiative and invite them to register in
 SupplyPoint™. MEP MSI will use every avenue available to maximize the number of Florida
 SMEs to be registered in SupplyPoint™. Specifically MEP MSI will:

                         • 	 Prepare marketing information for Florida Initiative
                         • 	 Make direct calls to 1,300 Florida SMEs who are in the machine shop
                             sector
                         e   Train and educate Florida MEP Channel Partners on the initiative
                         • 	 Provide Florida SMEs access to SupplyPoint™ Help Desk to facilitate
                             registration 57                                                    .


Outcome

MEP MSI developed marketing material, educated strategic partners on the benefits of
SupplyPoint® and. Florida's supply chain initiative and coordinated the efforts of the Florida
MEP staff to engage their clients on SupplyPoint®. During 2005-06 over 200 SMEs were
registered on SupplyPoint®.


                    2.      Comparison and Description MEP Management Services Contract

fu contrast to the specific tasks associated with each of the MEP MSI contracts to implement the
stages of Florida MEP's supply chain initiative, Florida MEP's Management Services
Agreement with TimeWise is specific and limited to providing services to Florida MEP under its
Cooperative Agreement with NIST with TimeWise providing day-to-day oversight of the Center
at the request of and under the direction ofthe Board of Directors under a fixed-price
arrangement. Of note, the Management Services Agreement was pre-approved by an authorized
NIST official prior to the Board of Directors voting to accept it. Also of note is the fact that the


56
     See Vendor Agreement for Task 3, Schedule A Ex. 40.
57
     See Vendor Agreement for Task 4, Schedule A Ex. 40.


                                                                                                 22



                                                   55 

                                                                                       APPENDIXD 





Management Services Agreement allows Florida MEP to reduce the percentage of its budget
expenditures on internal management activities to a level well below other MEP Centers.

Under the Management Services Agreement, the specific and limited tasks assigned to
TimeWise are:                                                                 ·

   • · Sales Support

        Sales support is a coordinated set of activities that manage the effectiveness and
        success of Florida MEP's field operations. TimeWise supports Florida MEP
        in outreach, field operations management, joint client sales calls, product
       distribution strategies, and professional development of field staff and quality
       control. Florida MEP entered into a License Agreement with TimeWise to purchase
       its Time Wise® suite ofproducts for Florida MEP to use in the Centers delivery of ·
        services. TimeWise has License Agreements with many of the Centers in the MEP
        Program.

   •   Information Technology

         TimeWise makes available to Florida MEP (for a fixed monthly subscription fee) the·use
         of certain proprietary databases for integrated project tracking, time reporting and client
       ·management systems including. SupplyPoint... The subscription fee covers the cost of
       . customization of website, maintenance of database, backup/disaster recovery and hosting
         the SupplyPoint website for the Florida MEP.

   •   Funding Sources

       TimeWise assists Florida MEJ> with researching potential grant proposal opportunities;
       assisting in the preparation of the proposals; and researching and identifying state and
       federal funding sources that will benefit the clients served by the Center.

   o   Partnerships

       TimeWise assists Florida MEP with developing partnerships with organizations within
       the State of Florida that have a mission to assist SMEs throughout the state and that help
       Florida MEP meet is NlST MEP federally mandated requirements. TimeWise assists the
       Florida MEP foster these relationships by attending initial meetings, developing the
       partnership agreements and helping the Center monitor the submission of partnership
       agreements to NIST/MEP. TimeWise also coordinates with Florida MEP staff the
       activities between the organizations and with the collection of partnership reports
       (financial and programmatic).

  •    MEP Collaboration




                                                                                                23



                                          56 

                                                                                      APPENDIXD 





         TimeWise manages multiple MEP Centers and in doing so realizes that each Center has
         unique staffresources and capabilities. TimeWise facilitates the use of best practices and
         the sharing of staffresources and expertise with Florida MEP.

    •    Financial Management

        TWMS manages preparation of financial statements and proposed budgets; provides
        oversight and assistance in responding to federal and state audits. Provides oversight and
        management of financial reporting systems.

•       Management of Human Resources

        TWMS manages personnel policies and procedures; recruitment of new staff; oversee
        employee benefit plans, employee training and advancement and oversee maintenance of ·
        employee files and records.

•       Management of Reporting Requirements

         TWMS provides support of the Florida MEP's strategy for meeting the Minimally
         Acceptable Impact Measures (MIAM). Oversees preparation of economic impact studies
        ·based upon Florida MEP's efforts. Prepares NIST reports.

•       Strategic Planning

        TWMS facilitates strategic planning sessions of the Florida MEP Board of Directors ·
        including tracking key strategic goals set by the Board of Directors.

•       Business

        TWMS manages the preparation of required business filings and oversee legal and
        contract issues.

•       Board of Directors Communications

        TWMS facilitates Board of Director meetings no less often than 4 times a year; consults
        with Board of Directors on proposal and document reviews and assists the Board of
        Directors in federal and state compliance issues.

•       Technology Transfer

        TWMS consuls on procedures to be used in technology commercialization programs
        and initiatives and assists the Center in the development ofnew relationships to enhance
        new product development..




                                                                                               24



                                           57 

                                                                                              APPENDIXD 





         B.      Questioned Other Consultant Costs

 The Draft Audit Response questioned $183,500 in consultant services because of the alleged lack
 ofadequate supporting documentation and unreasonable duplication of services.

   Contrary to what is stated in the Draft Audit Report, the consultants did provide periodic written
   summaries of the activities performed during the term of their contract. In addition, each·
   consultant was in regular conununication with MEP Center management officials and employees
   regarding their activities via telephone conferences, email and face-to-face meetings. The
   invoices reflect this regular communication. The recipient retains ultimate responsibility to
   oversee the contractors and subrecipient performance and determine program compliance.58
   Florida MEP assured that the services procured were received in accordance with the terms of
   their contracts. Documentation to support the reasonableness of the·contractor invoices can be in
· :the narrative provided by the . contra~tor for the invoice period. Additionally. criteria used in
   approving invoices include the.reasonableness, the delivery of services were performed and it
   was in accordance with the contract terms. 59


  Based upon the stt:ategic thnJ.sts identified in Florida MEP's Strategic Plan for FY 2005-200760
  and its 2005 Operating Plan,61 the Center identified consultants whose expertise and experience
  woUld best assist the Center in reaching its strategic goals. Each consultant possessed a certain
  area ofe>;pertise that was of value to the Florida MEP. The .florida MEP Board' of Directors has
  delegated· authority to TimeWise to engage specialized professiorial and consulting services on
  behalf ofFlorida MBP when it is reasonable and ·necessary. All rates and amounts were
  r,eviewed and determined to be reasonable and consistent with all ofthe services provided. It
 .was reasonably determined by Florida MEP to utilize.the specialized services of consultants on a
· limited basis rather than incurring the expense of finding and hiring as full-time employees ··
  individuals to perform similar roles.


                 1.
                                experience within the Federal government in particular NIST MEP
                                     engaged to assist the Center with: 62

     • 	 identifying.and secuting new business opportunities with OEMs, and 1st and·2nd tier .
        · suppliers
     • identifying funding opportunities through Federal or 'state grants


 58
    See OMB circular A-133 §_.210, App.l. and the Federal Grants Management Handbook at96 (September 

 2004). 

 59
· See Criteria for Contracting Officer and Contracting Officer Technical Representative at 

 www.emcbc.doe.gov/flles/dept/contractinglfrequently%20asked %20-%20fuvoicing.doc. 

 60
    Florida MEP Strategic Plan FY 2005-2007 at 3 

 61
    Florida MEP 2005 Operating Plan at 7 & 10. 

 62
    Professional Services Agreement between Florida MEP                      LLC Ex. 41 



                                                                                                         25



                                                58 

                                                                                       APPENDIXD 





     • 	 providing assistance with analyzing grant opportunities and guidance on writing
         proposals
     • 	 representing Florida MEP oil issues supporting SMEs in the State ofFlorida
     • 	 promoting the services and successes of the Florida MEP

The Draft Audit Report questions ~paid to                                    "because ofduplication
ofservices and~rting invoices that                         not          specific services
performed." 63 ~sisted Florida MEP by participating in meetings with various
military installations, federal agencies, and other entities, to discuss the Florida Center for
SupplyPoint Integration and the services the Center provides; met with large OEMs to discuss
supply chain development and worked with Center staff on goals and objectives to meet the
needs of the DOD supply chain; reviewed an,d commented on Florida MEP grant proposals; kept
Florida MEP apprised ofnew grant                                      in discussions regarding
workforce training initiatives. In                                   as a valuable resource for the
              in regards to its federal funding partner        MEP. Invoices received from
                         detail the services performed. 64

                  2.

                               learning solutions for suppl~ent by providing supply
        str1ategi(:s and extended process improvements. - . . - worked with Florida
 MEP staff on training and educating Center staff on SMEs, prime contractors and OEM~
  hain im rovement and processes for m~g their extend~d enter:Prise. I~ addition. ­
                as a resource for all MEP staff m regards to sharmg their extenstve knowledge on
                 e financial performance ofinaD:ufacturers inv~mprovement
 efforts. As a. result much ofthe time spent each month by - - - - - . vas answering
-
phone calls and questions from Center staff. The invoices accurately reflect the s· ·
- - consistent with the written agreement between Florida MEP and .                         .


                 3.

The Draft Audit Report questioned ~ver 15 months because of alleged inadequate .
supporting invoices as well as alleged duplication of services. However, as evidenced by
documents that were available to the auditors, -        did provide Florida MEP with.quarterly
reports that outlined the functions performed for that resp~reports that were
consistent with the agreement between Florida MEP and - - - -65

                     engaged by Florida MEP to assist the Center in identifying funding
              and developing grant ~ould benefit Hispanic manufacturers and
workers in Florida.66 Specifically, ~ssisted Florida MEP with developing a
proposal for Hispanic Small Manufacturing Initiative for Sun Belt States; attended meetings with

63
   Draft Audit Report at 21.
64
   See sample invoice and summary ofact ivities from October 2006                41
65
   See sample invoice and summary ofactivities from A pril
66
   Professional Service's Agreement between Florida MEP and


                                                                                                 26 




                                                   59 

                                                                                             APPENDIXD 





 Department of Labor officials regarding grant fund.s available for training Hispanic workers in
 Florida; participated in meetings with DoD officials to discuss utilizing the Florida center for
 SupplyPoint Integration to identify Hispanic and other minority manufacturers to participate in
 the DoD supply chain; and worked with Florida MEP on a proposal subniitted. to the Department
.ofLabor for the Mobile Outreach Skills Training (M.O.S.T.) Program for Hispanic workers.

 In addition, as identified in the Florida MEP Strategic Plan FY 2005-2007, the Board of
 Directors identified as one ·ofits key strategic thrusts:67 "Serve the Hispanic ManufactTJring
Community and to do so through a                              US-Mexico Chamber ofCommerce."
Florida MEP utilized the serv~ces                   because oftheir in-depth knowledge and
expertise of the issues surrounding               manufacturers and Spanish speaking
workers-specialized expertise that was not available from within the Florida MEP organization.

                 4.
                                     in depth knowledge and technical expertise in tbe·ateas of
                         t.aenttJ[y ~•;;u~;•uu funding opportunities and drafting successful grant
                                               enga:ged to assistFlorida MEP with ekploring federal
                            grant opportunities. 68                                  ·


                                 officirus were. continually updated on the activities perfo~
                          hr'""'"'h emails, telephone conferences and periodic meetings. - ­
                          Center with the preparation ofbriefing materials regarding the proposal
 for the Florida.Center for St,1pplyPoint Integration; and advised the Center oh effective 

 comm           on:Strate
                   u n iies  cand     · 
 ?Dints f~r ~romotio? of supply ch~ initiative .~xp~sion
                                a -talking
 proposa1.69                            proVlde spectaltzed servtces, as.determmed by Flonda MEP
·officials that were not otherwise·available within the Florida MEP organization.

vn.      Questioned Consultant And Relat~d Travel Costs.

The Draft Audit Report questioned costs related to a Massachusetts MEP employee
("Consultant") who was contr~ted by Florida MEP70 to assist the Center for .a period oftwenty
(20) days. The services that were provided by the Consultant were .directly related to Florida
MEP's on~n~ projects. The scope of work and type ofdelivery was_for a client ~roject
related to~d not the Department ofLabor Advanced Manufactunng HIB proJect as
claimed in. the ~udit Repo~. The co~ for the Consultant was ~p~r day for _twenty (20)
days, totaling ~ The services provtded by the Consultant were specialty servtces not ·         ·
covered under the existing TimeWise or any other consultant contract by Florida MEP. Rather
than being a duplication of services,. the use ofa specialized consultant was a proper and
reasonable limited expenditure for .a specifically identified need.



67
   Florida MEP Strategic Plan FY: 2005-2007 at.3ltem #2
68
   Professional Services Agreelt}ent between
69
   Overview of Florida MEP work activities
70
   Agreement .between Massachusetts MEP


                                                                                                      27 




                                                  60 

                                                                                                 APPENDIXD 





             The travel expenses of $. .questioned_in the Draft Audit Report (part ofthe $18,317
             questioned costs) were incurred by the Consultant for travel to Florida MEP to assist the Florida
             MEP with client delivery for the period of2/5-2/16/07. The travel expenses were paid by
             Florida MEP directly to Massachusetts MEP. 71 Such costs were incurred on Florida's behalf and
             were reasonable and necessary for the accomplishment of Florida MEP's programmatic
             objectives and are therefore allowable. This individual was later hired by Florida MEP on a full­
             time basis.

         The expenses for two days mentioned as questioned costs, totaling ~for March 1, 2007 and
         March 2, 2067, are from an expense report of costs paid by Massachusetts MEP that had been
         submitted to Massachusetts MEP in error. n The cost.s for those days should have been charged
         directly to Florida MEP because the employee's activities for those days were. related to his work
         for Florida MEP, but the expense report was submitted to and paid by Massachusetts MEP.
         Therefore, it was necessary for Florida MEP to reimburse Massachusetts MEP for the $ . The
         employee was not paid by both Florida MEP and Massachusetts MEP.                                  ·

         VIII. Shared Employee Contracts

         The Draft Audit Report questioned costs o f $ - which were allowable incurred costs
         documented by time sheets submitted by the two individuals employed by Massachusetts MEP
         who worked directly with the Florida MEP under the Florida Supply Chain Initia~ve.

· ,\ .   As stated above, the Florida MEP Board of Directors decided to implement .a Florida Supply
         Chain Initiative based upon the success ofthe New England Supply Chain Initi~tive. To .do so in
         the most cost effective manner possible, Florida MEP executed a contract with Massachusetts
         MEP for the sharing of staff resources to avoid the added time and cost ofhiring and training
         new staff. Massachusetts MEP staffhad extensive knowledge inSupplyl>oint® and the
         engineering services that were going to be made available through the Florida Center for Supply
         Chain Integration. Prior to contracting with Mas~achusetts MEP, Florida MEP determined that ·
         there were no locally available resources with the necessary knowledge of SupplyPoint® and the
         engineering services that the Center for Supply Chain Integration would eventually offer in
         Florida. Florida MEP determined that such cos~ were reasonable and necessary for the services
         p~rformed, that they were comparable to tire costs charged on the open market and that such
         costs were allocable to the MEP mission.

         The two Massachusetts MEP employees recorded thei'r time on Massacllusetts MEP's time entry
         database ("CIS") which included a summary description of the servic.es provided according to
         the contract between Mas~chusetts MEP and Florida MEP, which describes in detail the scope
         of work and the nature of these services. The time recorded is accurate and is maintained in
         Massachusetts MEP's CIS database which is approved by the employee's supervisor. The scope
         of work for the contract between Massachusetts MEP and Florida MEP was directly related to
         the Florida Supply Chain Initiative and the SupplyPoint database. These services are clearly
         outside of the scope of work ofTimeWise' general management contract with Florida MEP and
         are directly related to SupplyPoint and the Florida Supply Chain Initiative. The services

         71
              Massachusetts MEP Invoice # 3954 Ex. 45 

         1
             z Ex. 45 (time sheet for period Feb. 26, 2007 through March 2, 2007). 



                                                                                                          28



                                                                 61 

                                                                                                    APPENDIXD 





 included the writing and review of CNC machine codes for hard-to-procure machined parts and .
 reviewing technical drawings and RFPIRFQ requirements which are special and unique services
 outside ofthe TWMS' contracts. As stated in docun1ents available to the auditors:

         The Employee will be accountable on a daily basis to the Director of Operations for MassMEP
         while working in collaboration with Florida l\.1EP staff in the performance of support of the
         FLMSC and CSCI; outreach to machine shop on potential contract bidding; work with field staff
         on promoting the CSCI and as appropriate, provide information to machine shops and assist with
         bid response process. MassMEP will retain authority to determine the overall performance of the
         Employee and both Parties will determine the effeetiveness and the quality of the Services. In
         providing the Services, the Employee shall be bound by all policies applicable to MassMEP and,
         in addition, those policies and procedures that may be unique to Florida MEP, including but not
         limited to, the handling ofproprietary and confidential information.

 The contract sets forth in detail the scope of work and the nature ofthe services to be provided
 by Massachusetts MEP. The time sheets kept by the .Massachusetts MEP employees record their
 activities and time related to the Florida MEP SupplyPoint database and the Supply Chain
 initiative. Pursuant to the contract and the time sheets, Florida MEP determined that the services
 were performed, benefit was received, and that the expenses were actually incurred on behalf of
 Florida MEP. On this basis, Florida MEP reasonably determined that those expenses were
 reasonable, allocable and allowable pursuant to their statutory·authority and the terms ofthe
 cooperative agreement. 73


 ·~
         QUESTIONED OTHER DIRECT COSTS

         A.       ~ Excess Training Materials Costs
 The Draft Audit Report questioned $ -.nexcess training material costs. As explained to 

 the·auditors, Florida MEP rnaintai.ned two off-site storilge facilities, one on the west coast of 

 Florida and the other in the southeast part ofthe state to store training materials. Training 

 materials were maintained in the two separate locations tO make the training materials more 

 accessible to staff members working in various locations throughout the state. 74 It was Florida 

 MEP's policy to allow project managers to request training material that they would need for an 

 i.lpconi.ing four to six week period. 


. In early 2007 Florida MEP decided that the off-site storage locations would be phased out and all
ordering and handling of Training Materials would be processed through the main office. The
storage facilities contents were transferred to the main office. Florida MEP also returned forty­
five (45) Lean 101 student guides from incomplete kits for credit. These process changes have
allowed the Center to reduce its on hand inventory and remain flexible and capable ofhandling
last minute orders based on late-scheduled training events. All training materials have been and
continue to be utilized in performance of the Florida MEP cooperative agreement.

        B.       $-Unre=:Jsonable T-Shirt Purchase

"ld
74
  Florida MEP maintains one office location in Central Florida but its project managers are located throughout 

Florida. 



                                                                                                                   29



                                                  62 

                                                                                        APPENDIXD 





  The Draft Audit Report questioned $ - i n clothing purchases. The clothing apparel expense
  questioned by the auditors is for Florida MEP branded shirts, similar to a uniform, provided for
  employees to wear when visiting clients and attending events. This benefits Florida MEP
· because it allows clients and attendees to identify and recognize the employee as associated with
  FloridaMEP. The average of$.per employee calculated by the auditors and reported in the
  Draft Audit Report actually represents the initial startup costs for 2005. Those costs are now   ·
  ~r employee. Florida MEP had detennined that this is a reasonable and necessary expense
  to the acC9mplishment of its statutory objectives and allows it to be recognizable among the
  manufacturing community as an .i mportant provider of services. Therefore this cost should be
  allowed.                        ·




            C.       ~nallowable Bad Debts

 We do not contest the finding that bad debts are unallowable costs. We therefore accept the
 fmding of$         as unallowable costs. The other claim for bad debt expenses of$31,500 has
 been corrected and is currently allocated as an unallowable cost item.               .

            D.      $. .-Unreasonable Rental Space Costs

  The Draft Audit Report questioned ~in rental space costs associated with-the work that .
  Florida MEP does with the United States-Mexico Chamber of Commerce. :As .evidenced in
  documents available to the auditors, the UQ.ited States-Mexico Chamber ofCommerce assists
  Florida MEP and its Hispanic manufacturing clients. TheUnited States-Mexico Chamber of
  Coinmerce assists Florida MEP in providing services· to its Hispanic manufactming clients by
  providing guidance relating.to minority workforee development, potential grant opportUnities,
  and other.manufacturing ~provement issues, Florida MEP continuingly submits proposals to
· multiple Federal agencies s~king funding to serve· all manufacturers in Florida and the decision
  to lease office space from the United States-Mexico Chamber of Commerce was the most cost
  effective means ofutilizing office and meeting space needs for Florida MEP representatives
  while .in Washlngton, DC to work on proposals, meet with federal officials and conduct other
  Florida MEP business.                                                                      ·

In the Florida MEP Strategic Plan FY 2005-2007,75 the Center identified as one of its key
strat~gies to serve the Hispanic manufacturing community. The Florida MEP Board of Directors
determined that Florida's Hispanic population was the fastest growil.lg segment in Florida and
Florida MEP needed to address the needs of both Hispanic owned manufacturing cdmpanies and
Spanish speaking workforce through a partnership with the US-Mexico Chamber of Commerce.
This particular strategic thrust was also discussed in the 2005 Operating Plan. 76 Based upon


75
     See Florida MEP Strategic Plan FY: 2005-2007 page 3 Strategic Titrust #2.
76
     See Florida MEP 2005 Operating Plan at 7 & 10.


                                                                                                30 




                                                    63 

                                                                                               APPENDIXD 





        these strategic thrusts it was reasonable to be able to utilize office space within the US-Mexico
        Chamber of Commerce for face-to-face meetings and working sessions.

        X.         QUESTIONED TIDRD-PARTY CONTRIBUTOR COSTS

        The Draft Audit Report questioned $99,738 in Third-Party Contributor costs from four sources
        "because ofinadequate documentation from Flonda MEP." Draft Audit Report at 11. As noted
        below, Florida MEP maintained the required documentation for each of its Third-Party
        contributors--documentation that was available to the auditors.

                   A.

                                                               nruc-ro,r-n>roJu corporation supported by the
                                                                     committed to providing
        organizations with resources and services specifically designed to meet their performance needs
        and promotes the               of                   in organizations by offering tnlining sessions
        through out Florida.                                                                excellence
       . .e;he

                                         based on the
·';·
       Florida MEP and the ~tier services and resources specifidally designed prom,ote
       profes~ional  development and performance excellence in small and me_d ium sized manufactilre,rs
       thi.-oughout·the State of Florida consistent with the statutory      ·           -       program.17
       Several of Florida                                                                   Florida MEP
       was recognized as a                                                                     MEP
       provides general                                                                      and
       conference call capabilities·to                                                         ·MEP
       •• -                -
                11<1<'-t''--,     mber                                                        the
                                < d th                                                        mmittee,
       planning and managing the manufacturing track at next conference. Bach of these .t asks provides
       for better coordination of and access to critical information necessary for Florida MEP to
       perform its statutorily ·                                              Jeb Bush, acknowledged
       Florida MEP project manager;

                     in the edroved Florida MEP Operating Plan, the "in-kind'~ cost share contributed
       _As des!i !l!iriba
        by the                 to Florida MEP was the result ofthe collaborative efforts to co-sponsor
        programs at e ance organizational performance excellence-through lean manufacturing
                                                                                           78
        processes and professional development through educational
        MEP utilizes as "in-kind" cost share a select portion oftime spent
        completing manufacturer assessments and assistingmanufacturers

       Source Documentation

       77
            Florida MEP - Florida                          Schedule A Ex. 47
       78
            See Florida MEP 2005 Operating Plan at 43.


                                                                                                        31



                                                         64 

                                                                                        APPENDIXD 





 In support of the Agreement between Florida MEP and the                                       of the
                    ubmits an annual progress report that outlines     activities of the parties and
 the cost share contribution. The report details by month the type of activity, number of examiner
 hours invested per examiner, total hours by manufacturing sector examiners, the amount of
 money invested by each examiner, total dollars invested                       sector examiners and
 the manufacturing sector related dollars invested by the                           In addition, ·the
 report shows the pro-rated general marketing expenses for the
 perce.ntage is based on manufacturing participation in the previous
 and the number of                                  participating on the
 Florida MEP reviews the                     report and supporting documentation and determined
 that the expenditures of                   ·on behalf of manufacturers were "programmatically
 reasonable and allocable" and were therefore "includable as a portion of the Center's
 contribution".


           B.



 Its purpose is to impi:ove Florida's manufacturing business climate.          is nota typical
 ~·membership" organiiation in that it will not replace the existing state, local and regional
 manufacturing aSsociations in Florida. Instead, it is intended to enhance the. power ofthose
 organizations and all manufacturers in this state by providing a forum for them to work
 collaboratively as·associations and as individual manufac~ng companies.

 Florida MEP is a .....,.....-....Uf5
 Florida MEP also

 Source Documents

~rovides Florida MEP a profit and l o . e t i t that shows its expenditures furthering the
MEP mission. ~da MEP reviews                         fmancial reports and ·determined that the
expenditures of -       on behalf of mao acturers were "progr:a.nunatically reasonable and
allocable" and were therefore "includable as .a portion of the Center•s contribution".81

           c.
                                                                            established by the
                           as an                                  state. It is served by a five-
 member board of directors, each personally appointed by the Governor of Florida. The key to
- s u c c e s s has been its partnerships with numerous local. state and federal age~cies, ~




                                                                                                 32



                                            65 

                                                                                                     APPENDIXD 





              well as the p~vate sector, to ~e~~ra~e tens of ~lions of dollars in fundili
                                                                                     'n to support education
              and econoJWc development lllitlatives. Dunng the past 18 years,              has chartered an
              aggressive course in making technology work for America.                               ·

              F~orida MEP and-collaborate to deliver successful and cost-effective transfer of cutting
              edge techn~to manufacturers throughout the State of Florida. 82 The former Executive
              Director of ~ a member ofthe Florida MEP Board of Directors.



                                                                                                ~aUy, _ the
                                                                                             by - f o r the
                                                                                            both of which target


              Source Documents

                               Florida MEP with financial reports that show its expenditures .for the specified
                      • • • • • •lwhic:h Florida MEP reviews and determined that. the expenditures of
 ..A, •               on behalf of"manufacturers were ·«programmatically reasonable and allocable" and were
-· 4. .                ..includable as a portion ofthe Center's contribution... 84    ·. .          ·   ·


                      D.      $. .-Former Maine MEP Employee

   ·,.· ·.   Travel costs for the employee hired on 3/1/07 a,re necessary and reasonable. The employee was a
     :~..    Maine resident a~ that ·time and he needed to relocate his family from Maine, sell his home in 

 ··.:;;      Maine and look for similar hous~g in the State ofFlorida. The airfares were reasonable and the 

  · .·       most inexpensive airfares and airlines were utilized. 


                      E.      $:. .- Board Member's Consulting Contract

             This payment reflects the amount of compensation ofthe Board member traveling expenses for
             travel to Washington, DC and to Tallahassee, FL. As identified below, these travel costs were
             not allowable and we accept they should not have been claimed Ullder the award.

             XI. LOBBYING COSTS

             The auditor inaccurately assumes that all costs associated with the American Small
             Manufacturers Coalition (ASMC) and.the Manufacturers Association of Florida (MAF) were
             lobbying costs and recommends to disallow them summarily. All ofthe costs the auditor
             questioned under this section were either costs associated with activities that failed to even meet



             82
                Florida MEP ~greement Ex. 52
             11
                  •     MEP 2005 Operating Plan at 39.
             14
                       Financial Reports 53


                                                                                                              33



                                                         66 

                                                                                                                                                      APPENDIXD 





              the definition lobbying85 or simply excluded from unallowable lobbying costs under OMB
                                                                                                                                                                           I
              Circular A-122 lobbying cost86•                                                                                                                              I
              ~ASMC Membership Dues a n d $ - - MAF Membership Dues 	                                                                                                      I
              Both ASMC and MAF are trade associations and their membership dues are allowable as
                                                                                                                                                                           I
                                                                                                                                                                           I

              membership in a business technical or professional organization under OMB A-122 Attachment                                                                   !
              (B)(30). 87 The amount paid for dues in these professional organizations do not meet the
              definition of lobbying expenses under OMB A-122 Attachment B (25) because they were not
              used to influence the outcomes of any elections, assist any political party in campaigning or other
              political activity, influence introduction or modification of any pending legislation or otherwise
              constitute unallowable lobbying. 88 These organizations. have taken measures to ensure that funds
              allocated for lobbying are separate from membership dues.

              ASMC is a national trade association that serves manufacturing extension agents that strive to
              increase the awareness of the needs of small manufacturers among the small manufactures; the
              general public, as well as Congress. Although ASMC has a lobbying ~nt to its activities,



              $­
              lobbying is not its sole purpose. The auditor states that ASMC spent ~n lobbying from
              July 2005 through June 30, 2007 however this is only a portion of its overall pudget. According
              to ASMC's fiscal years O~tober 1, 2005, through September 30, 2007 the total revenue equaled
                            Membership dues are actually divided such that participating 'in lobbying activities
              involves separate fee in order to avoid use ofrestticted funds tn lobbying activities.~9 This
              bifurcation of income and expenses protects against any ex:penditure of membership dues on
.:;.
.:-:s,
       . .·   Jobbying activities paid by restricted funds of~e MEP Centers.



              "See OMB Circular A-122 Attachment B(25Xa).
                                         (1) Attempts to Influence the outcomes of any Federal, State, or local election, referendum, inltiatlvc, o r sfmllar procedure,
                                        Utroogh in kind or cash contributions, endorsements; publicity, or slmUar activity>
                                        (2) Establishina. administering. contributine to, or p~ng the expenses ofa political party, campaign, polltk;al action
                                        co.m mittee, or other organization established for the purpose ofin11ucncing the outcomes of elections; .
                                        (3) Any attempt to lnfluc:rn:e: (l) lbe lncroduc:tion ofFederal or State leg~lation; or (ii) the enactment or modification of
                                        any pending Fedenl or State legislation through commonication wi1h any member or employee of1he Conpcss or State
                                        legislature (including efforts to influ,e nce State or local officials to enaage in simllat'lobbyin£ activity), or with any
                                        Govemmmt omclal or employee in connection with a decision to sign or veto enrolled legislatiOn;
                                        (4) Any attempt to lnflumcc: (i} The Introduction of Federal or State legislation; or (il) lhe enactment or modification of
                                        any pending Federal or Statelegislation by prepulng, distributing or using publicity or propaganda, or by urging members
                                        of the general plibllc or any segment thereof to contribute to or participate in any mass demonstration, march, rally,
                                        fundralslng drive. lobbying campaign or letter writing or telephone campaign; or
                                        (5} Legislative liaison activities, including attendance at legislative sessions or committee hearings. garhcring information
                                        regarding leglsl!llion, and analyzing the effect oflegislation, when such activities are carried on in support ofor in knowing
                                        preparation for an effort to engage in unallowable lobbying.
              16
                   See id at (b)( l).
              87
                See id at (30Xa) and (b) (allowing costs of"memberships, subscriptions and professional activity costs ofthe non­
              profit organization's membership in business, technical, and professional organizations are allowable, ...costs ofthe
              non~profit organization's subscriptions to business, professional, and technical periodicals are allowable." See also
              Health Systems Agency of Central Georgia, Inc., DAB No. 341 (1982) (allowing costs for membership dues but not
              supplemental dues).


              89
               See Exhibit 54 OIG Dues Payment Clarification, letter dated 9/17f2008 (explaining that ASMC membership dues
              were applied only to ASMC's general and administrative expenses).


                                                                                                                                                                   34



                                                                                  67 

                                                                                                            APPENDIXD 





        Similarly, MAF is a statewide initiative with the same goals as ASMC on a smaller scale and its
        activities are described above. Because the auditor was unable to apprehend that only a portion
        the organizations' overall activities constituted lobbying, he questioned the entire, otherwise
        allowable membership fees. The auditor failed to recognize that in fact none ofthe membership
        fees claimed as a cost under the Florida MEP Cooperative Agreement for ASMC and MAF
      . supported lobbyihg activities because the membership fees were separate from funds associated
        with lobbying. MAF does other activities besides lobbying. They issue newsletters; host an
        annual manufacturing summit (3 day event), and do outreach to manufacturers regarding
        training.

      Activities for Hill Day and Capital Day generally are not included in the definition of lobbying
      under A-122 because their purpose is to merely provide information to members of Congress
      about the MEP program. Both Hill Day and Capital Day are opportunities whete members of
      ASMC and MAF attend meetings to educate legislators ofthe needs of small manufacturers as
      well as the successes of the MEP program. Although the Cost Principles prohibit lobbying
      Wlder OMB A-122 Attachment B Section 25(aX3)-(5), subsection (b) excludes actiVities that
      pt:ovide factual information to members of Congress. In any event, ASMC uses funds
      specifically allocated for lobbying for its Hill Day budget and money from Florida MEP .
      membership dues does not go toward those. activities.

      ~ - ASMC.Public .Relations Campaign                                                   ·.: . .   ··:
~:.
      The auditor suggests a disallowance of costs that Florida MEP never expended. Without an
      expendituie of funds, there are no costs to disallow. The auditor notes in thejinding that the
      funds were returned to Florida MEP after the campaign was cancelled. Thus any proposed
      disallowance regarding these funds is moot even ifthose funds actually constituted disallowable
      lobbying expenditures and we contest the auditor's recommendation to disallow the -            It
      is unclear why this was included in the report at all. ·

      ~-Lobbying Travel Costs

      Despite the fact that the other costs related to educating the members of Congress and the Florida
      legislature were allowable, Florl_da MEP ~oes n -     i t te that the associated ~vel costs are
      unallowable. However, ~mcluded m the                        as not allocable or olmmed under the
      Florida MEP cooperative agreement. The payments by Florida MEP make that clear. The travel
      expenses, even if expended for the permissible purposes under OMB Circular A-122,
      Attachment .B Section 25.b., "trayel,lodging or meals are upallowable unless incurred to offer
      testimony at a regularly scheduled Congressional hearing pursuant to a written request for such
      presentation made by the Chairman or Ranking Minority Member of the Committee or
      Subcommittee conduc~ch hearing." The Florida MEP employees did not travel for these
      purposes. Therefore, $~hould be disal1Qwed. 90

      In any event membership dues were not used toward travel costs for Hill Day or Capital Day. If
      the auditor is suggesting that the disallowance is in order merely because Florida MEP


      90
           Peter Weymouth former FL Director went to DC and Peter and Gene Lussier, Chair ofBOD went to Tallahassee..


                                                                                                                  35



                                                        68 

                                                                                                      APPENDIXD




  employees participated in activities associated with ASMC and MAF; we dispute the
  disallowance.·


 .XII.     EXCESS PROGRAM INCOME

 The Draft Audit Reporfstates that Florida MEP ''had no excess program income" and therefore it 

 inaccurately reported unrestricted net assets. The Draft Audit Report rejects the concept that 

 Florida MEP could generate any "unrestricted" excess program funds. Yet, NIST MEP 

                                                                                                                      -I
 authorized officials provided specific instructions to all of the MEP Centers, including Florida 

 MEP, as to how they could generate and retain "unrestricted" funds through its Operating 
                            I
 Guidelines, Audit and Compliance Guides, Terms and Conditions, Formal Presentations at MEP 

 Conferences, written and verbal communications, and postings on the MEP intranet. ,·F lorida 
                        I
 MEP disagrees with the Draft Audit Report's interpretation that to calculate excess program . 

 income Florida MEP must ignore all other sources of non-federal expenditure~~ly all 

 excess prQgram income retroactively. Florida MEP disagrees that any ofthe ~pent on 

 activities in furtherance of the MEP mission must be refunded to NIST.                  ·


  NIST MEP authorized officials instructe4 that the Florida MEP's cooperative agteement is a
  cost-reimbursement type agreement, and that after properly accounting for the expenditure                 of
· federal fun4ing, state funds ,program income, and the reasonable, allowable, and allocable cost 

 contributions of partnering entities, the non-federal share (two-,1hirds) -of any remaining funds at 

  the end of the annual award period could be retained by FloridaMEP as "unrestric,:ted" funds. 91 

 NIST MEP authorized officials stated that these "unrestricted" funds could·-~ u,sed·for £apacity 

 l:milding, as a reserve for "maintenance ofeffort"; and for other experiditur~s9~ This position is 

 consistent with the long-stated position that ifa grant has "excess" progratn income, those funds 

 may be. spent on.exp.enses that are "not otherwise·pennissible as-charges to federal ftmds." . 

 Anchorage Neighborhood Health Center, U.S. Health and Human Services Departmental 

 Appeals Board Deci$ion, DAB No. 561 (August 6, 1984). 


 . Authorized NIST program staff correctly provided guidan~e to. Florida MEP and the· other MEP
. CenterS over the years that under cost.,-reimbursement cooperative agreements the MEP Centers
   may retain unexpended program 4tcome (..uPI;') and that it is a source of'•reserves." Centers
   were instructed to maintain a.reserve in order to support the Center during periods of inadequate
   funding or to accommodate cash flow. Pursuatlt to NIST instruction, Centers· operated widl the
   understanding that ·any reimbursement funds remaining after a Center accounted fQr partner cost
   share contributions and program income were •'unrestricted" to the extent of·the non-federal
   share93 Under prior MEP General Terms and Conditions, NIST directed that "prog:rani income
   be retained by recipient and shall be ~sed to finance any non-Federal share ofthe project." In
   October of2006 that clause was amended to allow Centers to carry over excess program income



 91
    See Presentation on Program Income attached as Ex 61 . 

 92
    See email.from Margy Philips to NIST EMP Task Group on Program Income. Ex. 57 

 93
    See letter from Margy Phillips regarding "unrestricted" reserves and Presentation on Program Income by Mike 

 Simpson attached as Exs.60 and 61. 



                                                                                                                 36



                                                    69
                                                                                                                   APPENDIXD 





                 without a separate prior approval so long as it is declared and explained in the Center's annual
                 operating plan. 94

                 The concept that MEP Cente~s may have "unrestricted" funds has been long supported by
                 authorized NIST officials. It wa8 addressed in a letter95 from M. Phillips, former NIST Deputy
                 Director, stating the following:

                                  If the recipient (in this case***) has correctly requested
                                  reimbursement for expenses, and a portion of that reimbursement
                                  can then be put into reserve, as long as those funds are not being
                                  utilized to satisfy cost share requirements for the award, they are
                                  "colorless" and therefore available to be used for any program
                                  purpose.

                In the 2001 Compliance Guide issued by NIST MEP, dated November 7, 2001, authorized NIST
                officials explained that excess or "undisbursed" program income ''temporarily increases the
                restricted net assets ofthe organization" to the extent of the federal share of the excess program :
                income. See 2001 Compliance Guide at p.84.96 The Compliance Guide also provided a precise. .
                calculation method for determining excess program income. Id The calculation clearly shows ·
                that total program expenses should be reduced first by all sources of cost share; including .
                federal, state, and other cash cost share, and in-kind cost share, to arrive at "expenses .available to
   _.,.         be financedby.program income". This calculation clearly shows that program income is used
.....~ . 	      only to the extent required to meet the non federal portion of the award. If the non-federal
........... 	   portion of the award was met entrrely with cost share, there could be no obligation to use
                program income to meet the non-federal portion of the award.

                The 2005.0perating Plan Guidelines announced that the Audit and Compliance Guide was
                currently under revision but was available on www.mepcenters.nist.gov. This version did not
                contain any new or different terms on program income.

                In April of2006, as an amendment to the Cooperative Agreements for the July I, 2005 to June·
                30, 2006 program year, NIST MEP issued new MEP General Terms and Conditions that
                contained the following term on program income:

                                 Program income earned during the project period shall be retained
                                 by the recipient and shall be used to finance any non-Federal share
                                 of the project. 97

                                 Excess program income may be carried over to the subsequent
                                 funding period, if the Center obtains the grants officer's prior
                                 written approval. When closeout commences, the NIST share of


                94
                   Update ofMEP Activities, E-mail to MEP System from Roger Kilmer, October 5, 2006. Ex. 62 

                95
                   Letter from M. Phillips to B. Zider, June 6, 2001. A copy is attached at Ex 58. 

                96
                   A copy is attached as Ex 63 .. 

                97
                   General Terms and Conditions, Hollings Manufacturing Extension Partnership, April2006, 1 15(A). 



                                                                                                                        37



                                                                   70 

                                                                                                          APPENDIXD 





                                         any unobligated fi.mds must be returned to NIST within 90 days
                                         after the expiration ofthe award. 98

                 This provision still did not alter the 2001 Compliance Guide's calculation and treatment of
                 program income. It only required that a Center obtain the Grant Officer's prior written approval
                 to carry forward program income. The May 2006 Draft Compliance Guide, published for the
                 May MEP Conference also did not alter the 2001 Compliance guide for the calculation of
                 undisbursed program income nor did it say anything new regarding undisbursed program
                 income. Therefore the controlling language remains that ofthe 2001 Compliance Guide.

                The auditor's position that program income earned by Florida MEP ..could have been used to
                meet the matching share requirement of the award with no excess to carry over" is in direct
                conflict with the NIST MEP Compliance Guide and other guidance from NIST MEP, and
                overstates the payment requirement at 15 C.F.R. § 14.22. The NIST MEP Compliance Guide,
                the NIST MEP position paper on the treatment of program income, and the NISTMEP G~neral
                Terms and Conditions all recognize that Centers may have program income in excess of what is
                required annually to meet the non-federal portion of the award. The NIST MEP position is also
                supported clearly in the correspondence issued to Centers by the program income working group
                established in May 2006. 99 The position paper describes program income as a necessary part of
                the program and one of the "core principles of.the program from its inception". The NIST Chief
                ofthe Grants Office and legal counsel, after consulting with KPMG, came to the conclusion that
·.·             the ..regulations do not conflict with one each other. Instead, there was a consensus that they .
      · ·····   operate together and that 15 C.F.R. 14.22(g) is to be interpreted within the context of 15 CFR
       · ':     14.24(b)(2). In other words, it was agreed that 15 C.F .R. 14.22(g) does not reguire a recipient to
                use program income to furtd the recipient's Federal cost share requirement. It states "to the
                extent feasible." However, the Draft Audit Report does not recognize this fact and takes the:
                contrary position-that Florida MEP should not have retained any undisbursed and unrestricted
                program income.

                Florida MEP acted in reasonable reliance upon express statements by authorized NIST MEP
                officials in their treatment of program income. See United States v. Tallmadge, 829 F.2d 767, .
                773 (9th Cir. 1987). See also Raley v. Ohio. 360 U.S. 423, 438 (1959) (To succeed under a
                defense of entrapment by estoppel, the defendant must show that the government affirmatively
                stated that the proscribed conduct was permissible and that the defendant acted in reasonable
                reliance on the government's statement.). Even ifNIST MEP program had not provided specific
                guidance, Florida MEP is correct in retaining unrestricted program income. Most program
                income generated under MEP awards results from the fees paid by private manufacturing firms
                and individuals for services or for fees paid by conference participants or sponsors. These fees
                are paid with private dollars, not federal dollars. The costs of providing the services are fi.mded
                only in part with federal dollars either by the Florida MEP or its partners. Under Term 15 ofthe
                MEP General Terms and Conditions ofthe cooperative agreement and the administrative
                regulation at 15 C.F.R. §14.24(b)(2), NIST directs MEP Centers to apply any program income to
                the non-federal cost share. The Draft Audit Report correctly stated that Florida MEP generated
                program income, as defined at 15 C.F.R. § 14.2(aa), by the tuition or other fees paid by

                98
                     Jd. at 'lfl5(F).

                99
                     Ex. 56 & 57. 



                                                                                                                38 




                                                                     71 

                                                                                                              APPENDIXD 





        manufacturers who attend training classes, conferences, and other events sponsored by the MEP
        Center and/or its partners. Florida MEP reports the program income on the SF 269, and the
        Draft Audit Report correctly states that it generated and reported ~during the 7 ·
        quarters audited.                     ·                            .

        While there is clear legal support for the position that all excess program is unrestricted at some
        point, at most, only a portion of it is restricted. Program income does not automatically acquire a
        federal character and is not required to be deposited in the Treasury as miscellaneous receipts. 100
        The "recipient organization must account for program income related to projects financed in
        whole or in part with federal funds." 101 It may be retained by the grantee for grant related use. 102
        Clearly the federal government acknowledges the limited "federal character" or limited "federal
        interest" in the expenditure ofthe program income because the funds are generated with private
        dollars. At the very most, only a proportion of the "excess" program income is refunded to the
        agency when .it reduces the overall costs of the award. This has been acknowledged by. the
        Office ofInspector. General in other audit reports. This is clearly the position of federal agencies
        that directly address program income generated under matching grants.

        Neither NIST nor the Departtnent of Commerce have a regulation that specifically addresses the
        treatment of program income under cost share grants. A review of federal agencies'
        implementations of2 C.F.R. § 215.24 regarding the treatment ofprogram income under
··~ 	   matching grants establishes that the federal interest in program income is limited to the
        percentage of federal participation in the award:

        l. 	The Department·of Justice has·determined the following: Wh~re a program is onlypartlv
            fi:inded~y Federal funds, ·the Federal portion ofprogram income must be acqounted.for YJl1Q
            the same ratio o(Federal participation as funded in the project or program. 103 (Emphasis
            added.) For example: If a recipient was funded by formula/block funds at 75 ·p ercent ·
            Fe4eral funds and 25 percent non-Federal funds and the total program income earned by the ·
            grant was $100,000,$75,000 must be accounted for and reJrrted, by the recipient,.as
            program income on the Financial Status Report (SF 269). •                 .

        2. 	 The Housing and Urban Development provides: (e) Program income. (1) For the purposes
             ofthis subpart, "program income~' is defined as gTOSS inCQme received by a state, a unit of
             general local government or a subrecipient of a unit of general local government that was
             generated from the use of CDBG funds . .. When il).come is generated by an activity that is
             only partially assisted with CDBG funds, the income shall be prorated to reflect the
             percentage ofCDBG fUnds used (emphasis·added).105


        100
            B-191420 (August 24, 1978) at p.4 and 44 Comp. Gen.. at 87-88 (1964) which established that in.come generated
        from federal funds was not subject to section 3617 of the Revised States, 3f U .S.C. § 484 (1970).
        101
            15 C.F.R. § 14.23(b)(3) provides that ifexcess program income, one deducts only the federal share. This
        calculation was applied by the auditor in. the recent audit of Massach~setts MEP.
        102
            GAO Appropriations Law- Vol. II, Page 10·56.             ·
        103
            Financial Guide, Office ofJustice Programs, U.S. Department ofJustice, Chapter 4, available at
        http://www.ojp.usdoi.gov/finguide06/part3lpart3chap4/part3chao4.htm.
        104ld.                            .

        105
            24 C.F.R. § 570.489(e)(l). 



                                                                                                                       39



                                                            72 

                                                                                                              APPENDIXD 





            3. 	 The interpretation adopted by the Department of Justice has also been adopted by the
                 Department of the Interior, Office of Surface Mining ("OSM''). The OSM, in their Federal
                 Assistance Manual, adopts the principle through their definition offederal Share:

                     (For programs that have a matching or cost sharing requirement) the percentag~ .o f
                     Federal participation. The percentage of the net cost (i.e., total cost less program income
                     earned) of an activity borne by OSM represents the Federal share ofthe cost of the
                     activity. The Federal share o(any want or cooperative agreement related income
                     produced bv that activity is determined by al2Plving the same percentage factor. 106
                     (Emphasis added.)                 ·

            4 . 	 The National Endowment for the Hwnanities has a specific policy regarding Program Income .
                  which states: "The federal share o(program income is determined by the percentage oftotal
                  project costs that are supported by NEH." 107                                ·


             These other agencies' implementations of2 C.F.R. § 215.24(b)(2), are -consistent with the
             concept ofnon-federal cost-share, where program activities are not. wholly funded by federal
             funds. The federal government's interest in any program income generated under the award o~ly
            ·exists in the same proportion as its contribution offederal funds to the activity.

            In the 2007-2008 operating plan, which was subsequently approved by NJST MEP program
            Officer, Grants Officer, and legal counsel, included the following language incompliance with·
      ...   MEP Terms and Conditions:                                                                    ·

                     Undisbursed Program Income: $~e Florida MEP h a s -·
                      in Wldisbursed program i ncome. None of the Undisbursed Program Income is
:\.                  budgeted to be expended during the cooperative agreement year. That amount
                     will ~ kept in the fund balance to offset ris'k associated with delayed or reduced
                     funding ftoin the MEP program. The undisborsed program income is part of the
                     .center's planned program in.come level (reserve), which the centeq:ilans to
                   . maintain for such risk. The·Center woulcJ like to increase this planned program
                     income level in the future,_although it is not expecting to add to it during the
                     2007-2008 operating year.

            The Draft Audit Report cannot simply ignore the authorized review and approval ofthe
            use of the undisbursed program income by Florida MEP. Florida MEP.retains excess
            program income as a reserve and will expend it on purposes consistent with the Florida·.
            MEP mission. The :fmal audit report should remove any fmding questioning the program
            income that reported and retained by Florida MEP as a resex:ve. The final audit report
            should remove the finding that $294,000 be refunded to NIST.




            106
                Federal Assistance Manual, Office ofSurface Mining, Department ofthe.Interior, available at
            http://www.osnye.gov/farnldefin.htm.
            107
                See http:f/www.neh gov/manage/jncome recovery.html.


                                                                                                                  40



                                                                73 

